<html>
<title> - H.R. 271, H.R. 980, and H.R. 1668</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                   H.R. 271, H.R. 980, and H.R. 1668

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 12, 2001

                               __________

                           Serial No. 107-37

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 -------
77-881              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                    JOEL HEFLEY, Colorado, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
Wayne T. Gilchrest, Maryland             Samoa
George Radanovich, California        Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 12, 2001....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     5
    Delahunt, Hon. William D., a Representative in Congress from 
      the State of Massachusetts.................................    15
        Prepared statement on H.R. 1668..........................    17
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     3
        Prepared statement on H.R. 271...........................     4
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement on H.R. 271, H.R. 980, and H.R. 1668..     2
    McGovern, Hon. James P., a Representative in Congress from 
      the State of Massachusetts, Prepared statement on H.R. 1668    21
    Rahall, Hon. Nick J. II, a Representative in Congress from 
      the State of West Virginia, Prepared statement on H.R. 1668    20
    Roemer, Hon. Tim, a Representative in Congress from the State 
      of Indiana.........................................12<plus-minus>
        Prepared statement on H.R. 1668..........................    14
    Wamp, Hon. Zach, a Representative in Congress from the State 
      of Tennessee...............................................     6
        Prepared statement on H.R. 980...........................     8
        Article ``Park Status for Moccasin Bend'' submitted for 
          the record.............................................    10
        Article ``Moccasin Bend for national park'' submitted for 
          the record.............................................    11

Statement of Witnesses:
    Baker, Jack D., President, Trail of Tears Association, 
      Oklahoma City, OK..........................................    55
        Prepared statement on H.R. 980...........................    57
    Culp, Carson Pete, Assistant Director of Minerals, Realty and 
      Resource Protection, Bureau of Land Management, Washington, 
      DC.........................................................    28
        Prepared statement on H.R. 271...........................    29
    Ellis, Dr. Joseph J., Professor and Author, Mount Holyoke 
      College, South Hadley, MA..................................    39
        Prepared statement on H.R. 1668..........................    40
    Galvin, Denis, Acting Director, National Park Service, U.S. 
      Department of the Interior, Washington, DC.................    29
        Prepared statement on H.R. 980...........................    31
        Prepared statement on H.R. 1668..........................    34
    McCullough, David, Author, West Tisbury, MA..................    41
        Prepared statement on H.R. 1668..........................    43
    McIntosh, Janice L., Director, Carson City Senior Citizens 
      Center, Carson City, NV....................................    59
        Prepared statement on H.R. 271...........................    60
    Mills, James O., Vice-President, The Friends of Moccasin Bend 
      National Park, Chattanooga, TN.............................    52
        Prepared statement on H.R. 980...........................    53

Additional materials supplied:
    Collins, Kevin, Acting Legislative Director, National Parks 
      Conservation Association, Letter submitted for the record 
      on H.R. 980................................................    68
    Collins, Kevin, Acting Legislative Director, National Parks 
      Conservation Association, Letter submitted for the record 
      on H.R. 1668...............................................    69
    Davenport, Robert M., Jr., Chattanooga Project Office 
      Director, Trust for Public Land, Statement submitted for 
      the record on H.R. 980.....................................    70
    Inter-Tribal Council, Letter submitted for the record on H.R. 
      980........................................................    73
    Parsons, John, Chairman, National Capital Memorial 
      Commission, National Park Service, Letter submitted for the 
      record on H.R. 1668........................................    75
    Trail of Tears Association, Resolution submitted for the 
      record on H.R. 980.........................................    76


    LEGISLATIVE HEARING ON H.R. 271, TO DIRECT THE SECRETARY OF THE 
 INTERIOR TO CONVEY A FORMER BUREAU OF LAND MANAGEMENT ADMINISTRATIVE 
 SITE TO THE CITY OF CARSON CITY, NEVADA, FOR USE AS A SENIOR CENTER; 
H.R. 980, TO ESTABLISH THE MOCCASIN BEND NATIONAL HISTORIC SITE IN THE 
  STATE OF TENNESSEE AS A UNIT OF THE NATIONAL PARK SYSSTEM; AND H.R. 
    1668, TO AUTHORIZE THE ADAMS MEMORIAL FOUNDATION TO ESTABLISH A 
COMMEMORATIVE WORK ON FEDERAL LAND IN THE DISTRICT OF COLUMBIA AND ITS 
     ENVIRONS TO HONOR FORMER PRESIDENT JOHN ADAMS AND HIS FAMILY.

                              ----------                              


                         Tuesday, June 12, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10 a.m., in 
Room 1334, Longworth House Office Building, Hon. Joel Hefley 
[Chairman of the Subcommittee] presiding.

  STATEMENT OF THE HONORABLE JOEL HEFLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Hefley. I would like to welcome everybody to the 
hearing today. This morning, the Subcommittee on National 
Parks, Recreation and Public Lands will hear testimony on three 
bills: H.R. 271, H.R. 980, and H.R. 1668. The first bill, H.R. 
271, was introduced by Congressman Jim Gibbons of Nevada. This 
bill would direct the Secretary of the Interior to convey a 
former Bureau of Land Management administrative site to the 
city of Carson City, Nevada, for use as a senior citizen 
center. The approximately 4.5 acres of currently uninhabitable 
buildings would be subject to reversion to the Federal 
Government if they are used for another purpose other than a 
senior citizens assisting living center or related public 
purpose.
    The second bill, H.R. 980, was introduced by Congressman 
Zach Wamp of Tennessee. This bill would establish the 911-acre 
Moccasin Bend National Historic Site in Chattanooga, Tennessee 
as unit of the National Park Service System. I understand that 
the National Park Service completed its special resource study 
on the suitability and feasibility of establishing the National 
Historic Site and concluded that, indeed, the site is 
nationally significant and suitable for inclusion in the 
National Park Service. I also understand this bill is supported 
by the entire Tennessee delegation and the Intertribal Council 
of the Five Civilized Tribes.
    The last bill, H.R. 1668, was introduced by Congressman Tim 
Roemer of Indiana. This bill would authorize the Adams Memorial 
Foundation to establish a commemorative work on Federal land in 
the District of Columbia in honor of former President John 
Adams and wife, Abigail, former President John Quincy Adams and 
his wife, Louisa, Charles Francis Adams, Henry Adams and their 
legacy of public service. The bill specifies that the memorial 
will be constructed in accordance with the Commemorative Works 
Act. The adoption of this bill would not result in any expense 
to the Federal Government since the Adams Memorial Foundation 
will be solely responsible for accepting contributions for and 
payment of the expenses associated with the memorial.
    At this time I would like to ask unanimous consent that 
Congressman Wamp and Congressman Roemer and Congressman 
Delahunt be permitted to sit on the dais following their 
statements. Without objection, so ordered.
    I would like to thank our witnesses today for being here to 
testify on these bills. Mrs. Christensen is not here at the 
moment, but she will have the opportunity to make an opening 
statement at such time as she would be here.
    [The prepared statement of Chairman Hefley follows:]

   Statement of The Honorable Joel Hefley, Chairman, Subcommittee on 
National Parks, Recreation, and Public Lands, on H.R. 271, H.R. 980 and 
                               H.R. 1668

    Good morning and welcome to the hearing today. This morning, the 
Subcommittee on National Parks, Recreation, and Public Lands will hear 
testimony on three bills--H.R. 271, H.R. 980, and H.R. 1668.
    The first bill, H.R. 271, was introduced by Congressman Jim Gibbons 
of Nevada. This bill would direct the Secretary of the Interior to 
convey a former Bureau of Land Management administrative site to the 
city of Carson City, Nevada, for use as a senior citizens center. The 
approximately 4.5 acres of currently uninhabitable buildings and 
improvements would be subject to reversion to the federal government if 
they are used for another purpose other than a senior citizens assisted 
living center or related public purpose.
    The second bill, H.R. 980, was introduced by Congressman Zach Wamp 
of Tennessee. This bill would establish the 911-acre Moccasin Bend 
National Historic Site in Chattanooga, Tennessee as a unit of the 
National Park System. I understand that the National Park Service 
completed its Special Resource Study on the suitability and feasibility 
of establishing the National Historic Site, and concluded that indeed 
the site is nationally significant and suitable for inclusion in the 
national park system. I also understand this bill is supported by the 
entire Tennessee Delegation and Inter-Tribal Council of the Five 
Civilized Tribes.
    The last bill, H.R. 1668, was introduced by Congressman Tim Roemer 
of Indiana. This bill would authorize the Adams Memorial Foundation to 
establish a commemorative work on federal land in the District of 
Columbia to honor former President John Adams and his wife Abigail, 
former President John Quincy Adams and his wife, Louisa, Charles 
Francis Adams, Henry Adams, and their legacy of public service. The 
bill specifies that the memorial will be constructed in accordance with 
the Commemorative Works Act. The adoption of this bill would not result 
in any expense to the federal government since the Adams Memorial 
Foundation will be solely responsible for accepting contributions for 
and payment of expenses associated with the memorial.
    At this time, I would like to ask unanimous consent that 
Congressman Wamp, Congressman Roemer and Congressman Delahunt be 
permitted to sit on the dias following their statements. Without 
objection, so ordered.
    I would like to thank all of our witnesses for being here today to 
testify on these bills and now turn to the Ranking Member, Ms. 
Christensen.
                                 ______
                                 
    Our first panel will be composed of Congressman Zach Wamp, 
Tim Roemer, and William Delahunt, and also Jim Gibbons. I am 
going to call on Jim first for comments on his bill, since that 
is the lowest number bill.

  STATEMENT OF THE HONORABLE JIM GIBBONS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you very much, Mr. Chairman. Mr. 
Chairman, members of the Subcommittee, thank you for scheduling 
this hearing on H.R. 271, a bill which I introduced to convey 
4.5 acres of BLM land in Carson City for a much-needed senior 
citizen center, and I certainly appreciate this opportunity to 
discuss this very important piece of legislation to the 
constituents of Carson City.
    A commonsense directive, H.R. 271, along with Senate Bill 
230, a companion piece of legislation introduced by my 
colleagues, U.S. Senators Harry Reid and John Ensign from 
Nevada, has garnered much bipartisan support in Congress, as 
well as strong support in the area, and my home State of 
Nevada. The legislation directs the Secretary of Interior to 
convey a former Bureau of Land Management administrative site 
in our State's capital, Carson City, for use as a senior 
citizen center. The BLM has since moved to a new office in 
Carson City and is fully supportive of this land conveyance.
    The approximate 4.5 acres of land we hope to provide for 
our growing senior population consists primarily of uninhabited 
buildings that have been vacant for over 4 years. Mr. Chairman, 
with nearly 89 percent of the State of Nevada currently owned 
and managed by the Federal Government, I cannot think of a 
better way or a better use of our disposable public land than 
to help provide a much-needed facility for our senior citizens 
in Nevada. The Carson City Senior Center, established in 1972 
with the support of the Carson City Kiwanis Club and local 
community involvement, has seen many changes to its membership 
and, indeed, the center has changed its surrounding community 
in Carson City over the past 20 years, as well.
    Since 1982, Nevada's population has grown by about 1.5 
million people, many of these people consisting of senior 
citizens who see Nevada as an exceptional place to retire. This 
rate of growth, Mr. Chairman, one not seen anywhere else in the 
United States, requires our Federal, State, and local 
governments to act accordingly on matters of public service. At 
present, Carson City's population is slightly more than 50,000 
people with at least 20 percent of its residents age 60 or 
older. Mr. Chairman, that is one out of five in Carson City 
would be over 60 years old. That is--of a population of 
50,000--that is 10,000 people that this senior citizen center 
has the ability to provide services to.
    As a result, the current senior center in Carson City is 
one of the most highly-used public facilities in the region. 
Over the years, this facility has expanded to the point they 
are at today, which is overcrowded with simply no room left to 
grow. Consequently, new land is required to manage our growing 
community, and H.R. 271 is a step in the right direction for 
the senior citizens of northern Nevada. When completed, the 
newly constructed facility will provide our senior population 
with a modernized, state-of-the-art senior center. Furthermore, 
it will conveniently accommodate access to the Carson-Tahoe 
Rehabilitation Center Hospital and Assisted Living Center. With 
the additional space required through this land conveyance, the 
senior citizen center will be able to offer its most popular 
activities to a larger segment of the public, and without a 
doubt senior citizens throughout Nevada will greatly benefit 
from the passage of this bill.
    Again, Mr. Chairman, I appreciate the Committee's time to 
consider this legislation. More importantly the senior citizens 
in Carson City appreciate the time of this Committee and its 
consideration, as well. It is my hope that we can report some 
good news to them in the very near future, and on behalf of the 
senior citizens of Carson City, I respectfully request this 
Subcommittee's full support for this legislation and I thank 
you for the time.
    Mr. Hefley. Thank you, Mr. Gibbons. Let me step back just a 
moment and see if Mrs. Christensen has an opening statement 
that she would like to make
    [The prepared statement of Mr. Gibbons follows:]

 Statement of The Honorable Jim Gibbons, a Representative in Congress 
                        from the State of Nevada

    Mr. Chairman, members of the committee, thank you for inviting me 
here today to discuss this very important legislation with you.
    H.R. 271, along with S. 230 -- companion legislation introduced by 
U.S. Senators Harry Reid and John Ensign, is a common-sense directive 
that has achieved strong, bi-partisan support -- as well as strong 
support in my home state of Nevada.
    This legislation directs the Secretary of the Interior to convey a 
former Bureau of Land Management administrative site to our State's 
Capital -- Carson City, Nevada -- for use as a senior citizens center. 
The BLM has since moved into a new office in Carson City and is fully 
supportive of the land conveyance.
    The approximately 4.5 acres of land that we hope to provide for our 
growing senior population consists primarily of uninhabitable buildings 
that have been vacant for over four years. Mr. Chairman, with nearly 
87% of Nevada currently owned and managed by the federal government, I 
cannot think of a better use of our disposable public lands than to 
help provide a much-needed facility for our senior citizens in Nevada.
    The Carson City Senior Center, established in 1972 with the support 
of the Carson City Kiwanis Club and local community involvement, has 
seen many changes to its membership. And indeed, so has changed its 
surrounding community in Carson City over the last 20 years.
    Since 1972, Nevada's population has grown by about 1.5 million 
people, many of these people consisting of senior citizens who see 
Nevada as an exceptional place to retire. This rate of growth, one not 
seen anywhere else in the United States, requires our federal, state 
and local governments to act accordingly on matters of public service.
    At present, Carson City's population is slightly more than 50,000 
people with at least 10,000 (or twenty percent) of these people being 
of age 60 or older. As a result, the current senior center in Carson 
City is one of the most highly used public facilities in the region.
    Over the years, this facility has expanded to the point they are at 
today ... overcrowded with simply no room left to grow. For this, new 
land is required to manage our growing community and H.R. 271 is a step 
in the right direction for the senior citizens of Northern Nevada.
    When completed, the newly constructed facility will provide our 
senior population with a modernized, state-of-the-art senior center. 
Further, it will conveniently accommodate access to the Carson Tahoe 
Rehabilitation Center Hospital, an assisted living center.
    With the additional space acquired through this land conveyance, 
the Senior Citizens Center will be able to offer its most popular 
activities to a larger segment of the public. Without a doubt, senior 
citizens throughout Northern Nevada will greatly benefit from passage 
of this bill.
    Again, Mr. Chairman, I appreciate the committee's time to take up 
this important legislation. More importantly, the senior citizens in 
Carson City appreciate this committee's time and consideration. It is 
my hope that we can report some very good news to them in the very near 
future.
    On behalf of our senior citizens in Carson City, I respectfully 
request this committee's support for this legislation and thank each of 
you for your time.
                                 ______
                                 

      STATEMENT OF THE HONORABLE DONNA M. CHRISTENSEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing on the three bills that we 
are going to receive testimony on today. I want to welcome my 
three colleagues who are here to testify. The first measure, 
H.R. 271, directs the Bureau of Land Management to donate a 
piece of Federal property in Carson City, Nevada to the city 
for use as a senior citizens assisted living center. The four-
acre site is no longer used by the BLM and is adjacent to the 
existing senior center. Given the prohibitive expense to the 
community where they would be forced to purchase a property, as 
well as the valuable purpose for which they intend to use the 
land, this transfer is quite appropriate.
    The second bill, H.R. 980, would designate the Moccasin 
Bend National Site near Chattanooga, Tennessee. The area is 
listed on the National Register of Historic Places and is 
designated as a national historic landmark based on its 
archeological resources. Native Americans lived in Moccasin 
Bend as early as 12,000 B.C., until their forced removal by way 
of the Trail of Tears in 1838. Some have identified Moccasin 
Bend as one of the most important Native Americans sites inside 
any American city. Unfortunately, Moccasin Bend enjoys no 
uniform protected status and the land is home to a variety of 
uses, including a statewide mental health facility and a 
municipal golf course. The National Park Service has developed 
a plan to designate the area as a national historic park and 
phase out these inconsistent uses over time. However, this 
approach has led to some controversy.
    The legislation before us which designates the area as 
Moccasin Bend National Historic Site excludes the parcel on 
which the golf course is located. It is our understanding that 
this parcel contained some of the most significant resources in 
the area and its exclusion from the site raises concerns, as 
well. It is our hope that today's hearing might help clarify 
the merits of these two competing proposals to protect this 
important historic area.
    Finally, Mr. Chairman, and the reason that I ran over from 
my other hearing, I truly appreciate your holding a hearing on 
H.R. 1668, legislation I am pleased to be a co-sponsor with my 
friend, Tim Roemer. John Adams, our first Vice President and 
second President of the United States, was an early American 
statesman and patriot. I will leave it to our witnesses here 
today to describe in far greater detail the accomplishments of 
former President Adams and his family. As I have come to learn 
more about this President through Tim and the scholarly work of 
David McCullough, I am convinced of the appropriateness of 
establishing a memorial to their memory here in Washington, 
D.C.
    Mr. Chairman, I hope you and my colleagues will bear with 
me. I do have to get back to another hearing, but I did want to 
come over and make my statement and support 1668, in 
particular, and I look forward to reading all of the testimony 
from the panelists this morning. Thank you very much.
    Mr. Hefley. Thank you very much, Mrs. Christensen.
    Zach Wamp. We will turn to you.

   STATEMENT OF THE HONORABLE ZACH WAMP, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Wamp. To our distinguished Chairman and our 
distinguished ranking member, all of my colleagues here, and 
frankly, the staff that has worked so hard to bring us to this 
day, I want to thank you for this much-appreciated opportunity 
to testify on H.R. 980, the bill to establish Moccasin Bend 
National Historic Site in the State of Tennessee as a unit of 
the National Park Service. This bill is bipartisan. It includes 
co-sponsorships from all nine House members in Tennessee and 
Congressman Nathan Deal of North Georgia.
    The process to develop H.R. 980 has been one of consensus 
building and compromise. There has not been a point, since I 
have been involved in the last 6 years, that we have had this 
much support for adding Moccasin Bend into the National Park 
Service around this compromise. I believe we have a good 
compromise that has taken all views into account throughout 
this process. The wide range of support for passage of this 
bill today includes the city of Chattanooga, where the property 
is; Hamilton County; the State of Tennessee; the Intertribal 
Council of the Five Civilized Tribes Cultural Preservation 
Committee; the Friends of Moccasin Bend, the Cherokee Nation; 
and both editorial boards of the Chattanooga Times and Free 
Press, who seldom agree. Although this may be the first step in 
the legislative process, it is a monumental move for those who 
have worked so diligently to see Moccasin Bend preserved. It is 
the first time in decades that a Committee has revisited the 
merits of adding Moccasin Bend in the National Park Service.
    I will defer to Jack Baker, the president of the National 
Trail of Tears Association, and Jay Mills, the vice president 
of the Friends of Moccasin Bend, to explain in detail in their 
testimony the history and importance of adding this into the 
National Park Service. However, I would like to point out that, 
in 1950, Congress enacted legislation that authorizes the 
Secretary of Interior to accept a donation of no more than 
1,400 acres of Moccasin Bend to the Chickamauga-Chattanooga 
National Military Park. Although this legislation is still 
valid today, there have been many changes to the property over 
the years.
    The site was also listed on the National Register of 
Historic Places in 1984. In 1986, a 956-acre area was 
designated as the Moccasin Bend Archeological District National 
Historic Landmark. In 1998, Congress appropriated funds, at my 
initiative, and the National Park Service conducted a 
feasibility study that determined that Moccasin Bend holds 
nationally-significant archeological and historical resources. 
This study discussed many alternatives, but only had two viable 
alternatives; either leave the bend as is or include it as a 
unit of the National Park Service.
    The National Park Service study is very thorough and 
describes many of the threats to the resources that are 
included in the bend. The two most controversial areas are the 
Moccasin Bend Mental Health Institute and the Moccasin Bend 
Golf Course. During a number of discussions with all parties 
involved, I think we have brokered two very well-thought out 
compromises on each and have received broad support. In H.R. 
980, there are two privately-owned parcels of land; the Rock 10 
parcel and the Saradino and Clemish property are owned by 
willing sellers that would like their property to be part of 
the park. I have worked in my capacity as a member of Interior 
Appropriations Subcommittee to include $2 million in the 
National Park Service's Land and Water Conservation Fund to 
purchase these two properties, subject to authorization and the 
enactment of this bill.
    I know that the National Park Service will have some 
initial concerns about 980 since the bill does not include all 
of their recommendations. I believe that as the bill moves 
through the legislative process we can address these concerns. 
President Bush's initiative to eliminate the deferred 
maintenance backlog should be commended. I look forward to 
working with this administration on this initiative. Throughout 
the appropriations process, for the last 5 years, on the 
Interior Subcommittee, I have worked to reduce the backlog and 
to find creative ways, like the fee-demonstration program, to 
fund these needed improvements.
    The time to add Moccasin Bend into the Park System is now. 
From the early Native Americans to Hernando DeSoto on the way 
to the Mississippi, from the Cherokees beginning the Trail of 
Tears to the brave soldiers of the Civil War, the history of 
the bend calls us to action now. We must do both, preserve 
significant sites like Moccasin Bend, and deal with the backlog 
of maintenance needs at our national treasures.
    In closing, I would urge the Subcommittee to move forward 
on H.R. 980. I stand ready to work with you, Chairman Hefley, 
and the other members of the Subcommittee to make sure we that 
we perfect this bill as it moves through the legislative 
process. Thank you for the opportunity to testify today. I 
would look forward to any questions, and I would ask unanimous 
consent to include in the record the full written statement of 
Bobby Davenport the project director of the Trust for Public 
Land in Chattanooga, a letter of support for H.R. 980 from the 
Intertribal Council of the Five Civilized Tribes Cultural 
Preservation Committee, and two newspaper editorials supporting 
H.R. 980 by the two editorial boards of the Chattanooga Times 
and Free Press. I will be happy to answer questions and I yield 
back the balance of my time.
    Mr. Hefley. Without objection, these items will be 
included.
    [The prepared statement of Mr. Wamp follows:]

Statement of the Honorable Zach Wamp, a Representative in Congress from 
                  the State of Tennessee, on H.R. 980

    Chairman Hefley, Ranking Member Christensen and members of the 
Subcommittee:
    I want to thank you for this much appreciated opportunity to 
testify before you today on H.R. 980, a bill to establish the Moccasin 
Bend National Historic Site in the State of Tennessee as a unit of the 
National Park System. This bill is bipartisan and includes the nine 
House members from the State of Tennessee and Congressman Nathan Deal 
as original cosponsors.
    The process to develop H.R. 980 has been one of consensus building 
and compromise. There has never been a point since I have been involved 
in preserving Moccasin Bend that we have had this much support for 
adding Moccasin Bend into the National Park system. I believe we have a 
good compromise that has taken all views into account throughout this 
process. This wide range of support for passage of H.R. 980 includes 
the City of Chattanooga, Hamilton County, the State of Tennessee, the 
Inter-Tribal Council of the Five Civilized Tribes Cultural Preservation 
Committee, the Friends of Moccasin Bend, the Cherokee Nation, and both 
editorial boards of the Chattanooga Times and Free Press, who don't 
always agree.
    Although this may be the first step in the legislative process, 
this is a monumental move for those that have worked so diligently to 
see Moccasin Bend preserved. This is the first time in decades that a 
Committee has revisited the merits of adding Moccasin Bend into the 
National Park System. I will defer to Jack Baker, the president of the 
National Trail of Tears Association and Jay Mills, the vice-president 
of the Friends of Moccasin Bend, to explain in detail in their 
testimony the history and importance of adding this into the National 
Park system. However, I would like to point out that in 1950, Congress 
enacted legislation that authorized the Secretary of the Interior to 
accept a donation of no more than 1,400 acres of Moccasin Bend to 
Chickamauga and Chattanooga National Military Park. Although this 
legislation is still valid today, there have been many changes to the 
property over the years. The site was also listed on the National 
Register of Historic Places in 1984 and in 1986, a 956-acre area was 
designated as the Moccasin Bend Archeological District National 
Historic Landmark.
    In 1998, Congress appropriated funds, and the National Park Service 
conducted a feasibility study that determined that Moccasin Bend holds 
nationally significant archeological and historical resources. This 
study discussed many alternatives but only had two viable 
alternatives--leave the Bend as is or include it as a unit of the 
National Park System. The NPS study is very thorough and describes many 
of the ``Threats to the Resources'' that are included in the Bend. The 
two most controversial areas on the Bend have been the Moccasin Bend 
Mental Health Institute and the Moccasin Bend Golf Course. During a 
number of discussions with all parties involved, I think we have 
brokered two very well thought out compromises on each and have 
received broad support.
    Also, in H.R. 980 there are two privately owned parcels of land. 
Both the Rock-Tenn parcel and the Serodino and Klimsch property are 
owned by willing sellers that would like their property to be part of 
the park. I have worked in my capacity as a member of the Interior 
Appropriations Subcommittee to include $2 million in the National Park 
Services Land and Water Conservation Fund to purchase these two 
properties, subject to the enactment of H.R. 980.
    I know that the National Park Service will have some initial 
concerns about H.R. 980 since the bill doesn't include all of the Park 
Service's recommendations. I believe that as this bill moves through 
the legislative process that we can address these concerns. President 
Bush's initiative to eliminate the deferred maintenance backlog should 
be commended. I look forward to working with this administration on 
this initiative throughout the appropriations process. For the last 
five years on the interior subcommittee, I have also worked to reduce 
the backlog and to find creative ways like the ``Fee Demonstration'' 
program to fund needed improvements. But the time to add Moccasin Bend 
to the park system is now. From the early native Americans to Hernando 
de Soto on his way to the Mississippi; from the Cherokees beginning the 
Trail of Tears to the brave soldiers of the Civil War--the history of 
``The Bend'' calls us to action now. We must do both--preserve 
significant sights like Moccasin Bend and deal with the backlog of 
maintenance needs at our national treasurers.
    In closing, I would urge the Subcommittee to move forward on H.R. 
980. I stand ready to work with you, Chairman Hefley, and the other 
members of the subcommittee to make sure that we perfect this bill as 
it moves through the legislative process.
    Thank you for the opportunity to testify today, and I look forward 
to any questions you may have.
                                 ______
                                 
    [The articles referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T3044.007
    
    [GRAPHIC] [TIFF OMITTED] T3044.008
    
    Mr. Hefley. Congressman Roemer?

  STATEMENT OF THE HONORABLE TIM ROEMER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Roemer. Thank you, Mr. Chairman. I ask unanimous 
consent to have my entire statement entered into the record 
along with facsimiles and explanations of historic documents 
that we have from the Library of Congress.
    Mr. Hefley. Without objection.
    Mr. Roemer. Mr. Chairman, let me appropriately quote John 
Adams to start my testimony, ``I never shall shine till some 
animating occasion calls forth all my powers.'' I never shall 
shine till some animating occasion calls forth all my powers. 
We haven't had any shining on John Adams for over 200 years and 
this omission needs to be addressed, hopefully by July 4th of 
this year, which would be an appropriate date, given John 
Adams' and Abigail Adams' and their family's contributions to 
our independence movement.
    Also, as he talks about an animating occasion, I hope that 
you will find that with the distinguished scholars and 
historians that we have here today, David McCullough and Joseph 
Ellis, that they certainly will be animating and very powerful 
in their explanations as to why we should build this monument. 
Our powers--Mr. Chairman, I hope that we have bipartisan powers 
here today to pass this bill, to get it on the suspension 
calendar, encourage the Senate to go forward in an expeditious 
fashion and get this bill passed into law.
    I want to start by thanking you and your staff for all your 
help and all your cooperation. I want to thank Mrs. Christensen 
for her help and I want to thank the co-sponsors, some of which 
we have here today, Mr. McGovern from the State of 
Massachusetts, Mr. Souder from my home State of Indiana, for 
their bipartisan support as well, too.
    Many people ask me, Mr. Chairman, how is a guy from Indiana 
interested in this issue? Several years ago, while doing some 
research at the Library of Congress, I asked for a book that 
was referred to in a famous Adams-Jefferson letter as Simple 
Homespun. They told me they had to bring it out in the rare 
book collection, so I went to the rare book collection and they 
presented me with the very book that John Adams presented to 
Thomas Jefferson, to rekindle their friendship that had been 
soured politically after about 12 years. The book was written 
by none other than John Quincy Adams, and was a book on 
rhetoric and oratory.
    This ignited the most important correspondence between two 
leaders of our country in the history of our country, the 
famous Adams-Jefferson letters. I became fascinated, not just 
with John and Abigail Adams, but with the rest of the family 
and the successive contributions that these public servants 
have made. From the founding of the country to the independence 
efforts, to keeping us out of war with France, to John Quincy 
Adams writing the Monroe Doctrine, serving as President, 
serving as a Member of Congress for 18 years--Charles Francis 
Adams, running as a Vice Presidential candidate after he had 
bolted one party--I guess we have to be a little bit careful 
about bolting parties around here these days--bolting one party 
and running as a Free Soil candidate, and then serving in 
Congress and then being appointed by Abraham Lincoln to be the 
diplomat to keep the English out of the Civil War, keep the 
Confederacy from being supported by England. He was personally 
responsible for that, from an appointment from Abraham Lincoln.
    Then, from that family, Henry Adams was born, pre-eminent 
historian, writing on Presidential administrations, and 
probably wrote what many scholars say is the best autobiography 
in the history of the country, The Education of Henry Adams--
successive generations of public servants, Presidents, Vice 
Presidents, congressman, historians, men, women. We talked, and 
you will hear a lot from Mr. Ellis and Mr. McCullough about 
John Adams and Abigail Adams, and the 54-year marriage they 
had, and the love and the passion and the politics that they 
engaged in, unlike maybe any other relationship and marriage in 
the history of our public servants.
    They go on to have a child that is the sixth President of 
the United States and who serves in three careers, as public 
policy diplomat, as President, and as congressman. The history 
here is so dazzling, so brilliant, so filled with virtue and 
character and honesty, virtues that America needs to hear more 
about, that I hope this memorial is built, not only soon, to 
commemorate the contributions of this wonderful and talented 
family, but I hope the educational efforts help bring us along 
to talk about these kinds of virtues and characters and honesty 
in public service that, quite frankly, causes a great deal of 
cynicism on the part of many people in our electorate.
    These documents that the Library of Congress has so 
graciously brought today--Gerry Gawalt has brought them--are 
three letters; one letter, from John Adams to Thomas Jefferson, 
which talks about the two pieces of Homespun that I talked 
about, that actually was the two volumes, the two books, from 
John Quincy Adams, that he sent in the mail that were delayed 
and later delivered to Thomas Jefferson, that started their 
friendship.
    Another letter is a letter from John Adams to the Federal 
servants, public servants, at the time, telling them to pack up 
and move all their belongings from Philadelphia to the new 
capital in Washington, D.C. Again, an original document from 
the Library of Congress. The third letter is a letter from John 
Adams to Thomas Jefferson, talking with some degree of 
trepidation, but also with a lot of excitement, about his first 
meeting with King George III. This takes place when John Adams, 
the victorious rebel of the American Revolutionary movement, is 
meeting with the former oppressor. He buys a new coat and, I 
think, new buckles for his shoes to go meet with him, and has 
what he thinks is a respectful and kind meeting with the former 
oppressor.
    Three wonderful documents of many documents that the 
library has that they have graciously provided here today to 
catch up with some of the history that we have in this Adams 
family. I also want to conclude, and you cannot scratch the 
service in a 5-minute testimony about the importance of this 
family--the Colossus of Independence, as Jefferson called 
Adams, his contributions with his wife, Abigail, without 
mentioning my good friend, Bill Delahunt. Bill graciously 
hosted me up in Quincy, Massachusetts a few months ago, to 
better acquaint me with the history, the homes, the history of 
the family, the wonderful contributions that they have made. I 
want to thank him personally for all his help in putting this 
legislation together.
    Let me conclude with another John Adams quote. He was 
speaking to the determination that Great Britain had at the 
time of fighting the so-called colonists in America and trying 
to defeat the United States and keep them a colonial power. 
This caused Adams a great deal of resolve in his attitudes, and 
he said, ``Great Britain was determined on her system, but that 
very determination determined me on mine.'' And I quote, ``Swim 
or sink, live or die, survive or perish, I am with my country. 
You may depend on it.'' We depended on him and his family, his 
wife and his family, for our independence, our Revolution, the 
founding of the country and the foreign policy. It is time we 
deliver for this family and create this memorial. I look 
forward to, I hope, a lively discussion on this. I know you 
look forward to Mr. McCullough and Mr. Ellis testifying. Thank 
you, again, for the time and your support, Mr. Chairman.
    [The prepared statement of Mr. Roemer follows:]

  Statement of The Honorable Tim Roemer, a Representative in Congress 
                       from the State of Indiana

    We are here today because the question has been asked: why is there 
no fitting memorial to John Adams and his family's tremendous legacy in 
American politics. We are joined by two Pulitzer Prize winning authors 
and historians who have asked the same question and concluded that it 
is time to build it--and honor the most distinguished family in 
American history.
    This morning, the case will be made that John Adams's contributions 
as a colossus of independence; as an equal partner with Washington and 
Jefferson as a creator of our country; as the first Vice President and 
second President; as a skilled diplomat negotiating peace with England 
and later with France; as an author of one of the most important 
diaries, and perhaps the most important letters with Thomas Jefferson, 
are too great not to be immortalized among his colleagues.
    As a public servant, my fascination with Adams extends through 
three generations of his descendants. As a family, the Adamses were the 
guardians of our republic, from its creation through adolescence. Their 
courage and prophetic wisdom kept us out of war, built the foundation 
of American foreign policy, transcended party politics, and displayed 
independence in critical times. It is time to embrace their 
contributions with a proper memorial in our capital city.
    As a member of Congress, I am particularly intrigued by John Quincy 
Adams, the quintessential public servant, and son of John Adams. John 
Quincy Adams began his career as a diplomat, skillfully serving 
America's national interests in Russia, the Netherlands, Portugal, 
Prussia, and Great Britain. Under President Madison he negotiated the 
Treaty of Ghent, and as Secretary of State during the Monroe 
Administration, he helped create the most important and decisive 
foreign policy statement of its time, The Monroe Doctrine.
    John Quincy Adams's Presidency was ambitious. Like his father, he 
believed that the government should invest in education and science for 
the betterment of its citizens. He proposed a national university and 
observatory. He pursued his agenda with tenacity and initiative, and 
like his father, enjoyed negligible political support. Like his father, 
he served only one term as President.
    A true public servant, John Quincy Adams returned to public life 
after a brief hiatus to serve in the U.S. House of Representatives from 
his hometown of Quincy, Massachusetts. In his nine terms, he spoke of 
no issue more often--or with more vigor--than slavery. Like his 
parents, John Quincy Adams was a stolid abolitionist, known to his 
colleagues as ``old man eloquent.'' He died at the ``post of duty'' as 
a dedicated public servant, suffering a stroke on the floor of the 
House. He passed away two days later in the U.S. Capitol.
    John Quincy Adams's son, Charles Francis Adams, spent his formative 
years in Washington, learning through the examples of his distinguished 
predecessors. As he entered into politics, Charles Francis Adams became 
increasingly disenchanted with the insincerity and outright corruption 
of his generation of leaders in Washington. He soon bolted the Whigs in 
favor of the Free Soil Party, which organized around the principles of 
a profound opposition to slavery. He received the Party's Vice 
Presidential nomination in 1848, and eventually held his father's old 
seat in the U.S. Congress. In 1860, President Lincoln tapped Charles 
Francis Adams--now a member of the new Republican Party, and widely 
known for his sharp intellect and persuasive powers--to act as 
Ambassador to England in order to prevent British military support for 
the Confederacy. His logic, reserve and directness achieved functional 
neutrality from Britain, which helped to preserve the integrity of our 
Union.
    Charles Francis Adams's son, Henry Adams, shared his father's 
frustration with politics and corruption in Washington. His 
observations steered him towards journalism, where he described the 
shortcomings of modern politics without falling prey to them. A 
``liberal Republican,'' Henry Adams wrote pointed, brilliant essays 
exposing political fraud and dishonesty. He shared the idealism and 
independence of his heritage, never putting politics above his 
convictions. Henry Adams was also an accomplished academic, teaching 
Medieval History at Harvard, and the first American to employ the 
``seminar'' method of instruction. Henry Adams is best known for his 
acclaimed autobiography, The Education of Henry Adams. Some have called 
it the greatest autobiography in American history.
    The Adamses occupy a position in American history unequaled by any 
other family. They helped create our nation as champions of freedom; 
they helped defend and guide it during its vulnerable, early days; and 
they helped preserve it through the most divisive battle in American 
history. They devoted their lives to our Republic, and it is time to 
recognize and celebrate their genius, sacrifices, and significance, 
here in our nation's capital.
                                 ______
                                 
    Mr. Hefley. Thank you, Mr. Roemer. I think you are really 
onto something here. I appreciate the enormous effort that you 
have given to this and the fact that you have pushed it so hard 
and have brought it to my attention and the Committee's 
attention, and we are delighted to have you here today for the 
open hearing.
    Mr. Delahunt, we will turn to you now, but as we do that I 
wonder, Mr. Roemer, if it would be possible for the 
representative from the Library of Congress to walk around with 
those documents. We are not going to touch them, but if you 
would walk around the dais with those and let us get a little 
closer look at them, they are very significant documents, and 
it would be fun to do that.
    Mr. Delahunt?

 STATEMENT OF THE HONORABLE WILLIAM DELAHUNT, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Delahunt. Thank you, Mr. Chairman. I am pleased to be 
here with Tim Roemer in introducing this legislation. As you 
just indicated, I, too, to want to join in acknowledging 
Congressman Roemer's initiative in this legislation. As a 
native of Quincy, Massachusetts, which has been home to many 
generations of this remarkable family, and as the current 
occupant of the congressional seat once held by John Quincy 
Adams himself, it is my hope to enhance public appreciation of 
the contributions of the Adams family to our Nation.
    It is not an easy thing to do when the objects of your 
admiration do so little to cooperate, for they displayed a 
humility and selflessness that was as endearing as it is rare 
in public life. In 1776, John Adams wrote a famous letter to 
Abigail, in which he said, and I am quoting, ``Let me have my 
farm, family and goose quill, and all the honors and offices of 
this world can bestow me go to those who deserve them better 
and desire them more. I covet them not,'' unquote. So, maybe we 
can blame John Adams for the lack of appropriate recognition 
for his contributions to our country.
    While his modesty was becoming, it was certainly 
unwarranted, for the Adams family legacy represents what is 
best about America, a profound sense of civic consciousness, 
and a biting belief in the perfectibility of democracy, and a 
commitment to service and particularly sacrifice for the common 
good. I am sure David McCullough will amplify on that final 
phrase. With so many lawyers and legislators in this room, I 
would be remiss if I did not also say a brief word about the 
colossal contributions of John Adams and John Quincy Adams, 
also, to the development of the rule of law, both here in 
America and to many other nations that have followed the 
American example.
    It is a living legacy, as we observe emerging democracies 
everywhere adapting the Adams model. As a lawyer, John Adams 
had a passion for justice. In 1770, he took the enormous 
personal risk of defending the eight British soldiers who had 
fired upon the crowd in what became known as the Boston 
Massacre, and won the acquittal of six of the eight defendants. 
As early as 1776, Adams wrote that the surest way, again 
quoting Adams, ``To secure an impartial and exact execution of 
the laws,'' unquote, was by guaranteeing an independent 
judiciary. Judges, he said, should be subservient to none, no 
more complicit to one than another.
    Four years later, in 1780, Adams had the opportunity to put 
these concepts, these principles, into action as the framer of 
the Constitution of the Commonwealth of Massachusetts, the 
oldest written constitution still enforced and the first to 
enshrine the concept of a co-equal and independent judiciary 
peopled by judges and again quoting Adams, ``As free, impartial 
and independent as the lot of humanity will admit.'' Nine years 
later, when the United States adopted the Federal Constitution, 
the framers adopted the design conceived by Adams, including a 
system for ensuring the independence of judges through life 
tenure, fixed compensation, and removal only by impeachment.
    When, in 1801, his presidency was drawing to a close, John 
Adams appointed John Marshall as the 4th Chief Justice of the 
United States, an appointment that would do more than any other 
in the history of our Nation to confirm the power and the 
independence of the judicial branch of government.
    The story did not end there. In 1841, Adams' son, John 
Quincy, by then a former President and a member of the House of 
Representatives, stood before Marshall's successor, Chief 
Justice Taney, to argue the famous case of the Amistad, in 
which the Supreme Court ruled that a group of Africans, 
illegally taken from Africa and seized off the coast of New 
York, were entitled to their liberty, a decision firmly rooted 
in the rule of law which John Adams had done so much to assure. 
Over the last 160 years since that decision, the Adams vision 
of the rule of law, that a truly independent judiciary is 
essential to a healthy and vibrant democracy, has been embraced 
by countless other nations throughout the world.
    I submit that it is high time we celebrated here at home, 
as well. The people of Quincy have long honored these 
achievements. As you know, a recently critically-acclaimed 
biography on John Adams was released by Pulitzer Prize-winning 
historian David McCullough, whom we will be hearing from 
shortly. Senator Kennedy and myself are also encouraging 
Massachusetts State officials to more properly honor the Adams 
legacy with a commemorative tribute in Boston, as well. As a 
result of the McCullough biography and a previous work by 
another eminent historian, Joseph Ellis, there is a new wave of 
public interest which reflects the purpose of today's hearing.
    John Adams, John Quincy Adams and other members of the 
family served such a critical role in American history that 
there should be a publicly-accessible memorial to educate the 
hundreds of thousands who visit our Nation's capital each year. 
The city of Quincy and its residents, its citizens, want to 
share with the rest of America and visitors from oversees the 
enormous magnitude of this family's contribution to American 
democracy. I thank you, Mr. Chairman, and obviously urge quick 
and swift approval of this legislation.
    [The prepared statement of Mr. Delahunt follows:]

  Statement of The Honorable William D. Delahunt, a Representative in 
                Congress from the State of Massachusetts

    I am pleased to join Congressman Roemer in introducing legislation 
to authorize a commemorative work in our nation's capital honoring 
Presidents John Adams, John Quincy Adams and their First Ladies.
    As a native of Quincy, Massachusetts, which has been home to many 
generations of this remarkable family -- and as the current occupant of 
the congressional seat once held by John Quincy Adams himself -- it is 
my hope to enhance public appreciation of the contributions of the 
Adams family to our nation.
    This isn't an easy thing to do, when the objects of your admiration 
do so little to cooperate. For they displayed a humility and 
selflessness that was as endearing as it is rare in public life.
    In 1776, John Adams wrote a famous letter to Abigail in which he 
said, ``Let me have my Farm, Family, and Goose Quill, and all the 
Honours and Offices this World can bestow may go to those who deserve 
them better, and desire them more. I covet them not.''
    His modesty was becoming, but unwarranted. For the Adams family 
legacy represents what's best about America--a profound civic 
consciousness, an abiding belief in the perfectibility of our 
democracy, and a commitment to service and sacrifice for the common 
good.
    With so many lawyers and legislators in the room, I would be remiss 
if I didn't also say a brief word about the colossal contributions of 
John and John Quincy Adams to the development of the rule of law, both 
here in America and in the many other nations that have adopted the 
American example. It is a living legacy that continues to a have a 
profound influence in the 21st century as we observe emerging 
democracies adapting the Adams model.
    As a lawyer, John Adams had a passion for justice. In 1770, he took 
the enormous personal risk of defending the eight British soldiers who 
had fired upon the crowd in what became known as the Boston Massacre, 
and won the acquittal of six of those defendants.
    As early as 1776, Adams wrote that the surest way to ``secure an 
impartial and exact execution of the laws,'' was by guaranteeing an 
independent judiciary. Judges should be ``subservient to none, nor more 
complacent to one than another,'' he said.
    Four years later, in 1780, Adams had the opportunity to put those 
ideas into action, as the framer of the Constitution of the 
Commonwealth of Massachusetts, the oldest written constitution still in 
force, and the first to enshrine the concept of a coequal and 
independent judiciary, peopled by judges ``as free, impartial and 
independent as the lot of humanity will admit.''
    And when, nine years later, the United States adopted the Federal 
Constitution, the framers adopted the design conceived by Adams--
including his system for ensuring the independence of judges through 
life tenure, fixed compensation, and removal only by impeachment.
    When, in 1801, his presidency was drawing to a close, John Adams 
appointed John Marshall as the fourth Chief Justice of the United 
States--an appointment that would do more than any other in the history 
of our nation to confirm the power and independence of the judicial 
branch of government.
    Nor did the story end there. In 1841, Adams' son, John Quincy, by 
then a former president and a member of the House of Representatives, 
stood before Marshall's successor, Chief Justice Taney, to argue the 
famous case of the Amistad, in which the Supreme Court ruled that a 
group of Africans illegally taken from Africa and seized off the coast 
of New York were entitled to their liberty--a decision firmly rooted in 
the rule of law which John Adams had done so much to assure.
    Over the last 160 years since that decision, the Adams vision of 
the rule of law--that a truly independent judiciary is essential to a 
healthy and vibrant democracy--has been embraced by countless other 
nations throughout the world. It is high time we celebrated it here at 
home as well.
    The people of Quincy have long honored these achievements. As you 
know, a critically-acclaimed biography on John Adams was recently 
released by Pulitzer-prize wining historian David McCullough whom we 
are fortunate to have with us today. We are also encouraging 
Massachusetts state officials to more properly honor the Adams legacy 
with a commemorative tribute to these native sons in Boston as well.
    In short, there is a new wave of public interest which reflects the 
purpose of today's hearing. John Adams, John Quincy Adams, and other 
members of the family served such a critical role in American history 
that there should be a public, accessible memorial to educate the 
hundreds of thousands who visit our nation's capitol each year. Quincy 
wants to share with the rest of America and visitors from overseas the 
enormous magnitude of this family's contribution to American democracy.
    It seems incredible that there isn't already such a tribute, which 
should be a highlight of the pilgrimage to DC that is part of almost 
every American schoolchild's experience. H.R. 1668 would begin the 
process of addressing this omission.
    Not so long ago, we celebrated the 200th anniversary of the arrival 
of John and Abigail Adams as the first occupants of the White House. 
With the remarkable parallels to the 41st and 43rd Presidents, this is 
a particularly appropriate time to honor the Adams legacy. I urge my 
colleagues to help seize this opportunity to do so.
                                 ______
                                 
    Mr. Hefley. Well, thank you very much, Mr. Delahunt, for 
your testimony.
    Questions? Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman, and I commend the 
sponsor of this, Mr. Roemer, for preparing this and for the 
research that he put into it, and I, too, hope that this will 
receive swift approval. One thing that I hope you and the 
others will talk about even more is the valor shown by John 
Adams. We here in Washington often celebrate the military valor 
in monument and otherwise. John Adams showed a quiet valor that 
was every bit as admirable as what we celebrate elsewhere here 
in Washington, and I hope that you will address that.
    I know David McCullough has talked about the fact that he 
and the others who were active at this tumultuous time, 225 
years ago, had no idea where they were heading, whether it was 
toward the gallows or not. So, it is certainly worthy to 
celebrate his intellectual accomplishments, his judicial 
accomplishments, and the crafting of the greatest invention in 
humankind, the Government of the United States. We should also, 
I think, be celebrating his valor, and I hope that as you carry 
this forward, you will talk more about that. Thank you, Mr. 
Chairman.
    Mr. Roemer. Mr. Chairman, may I respond, please?
    Mr. Hefley. Certainly, Mr. Roemer.
    Mr. Roemer. Thank you. First of all, I want to thank my 
good friend who serves with me on the Education Committee about 
his kind comments about the research. Nobody appreciates 
research more than you do, given your great background as a 
scientist and your contributions on the Education Committee to 
those efforts.
    I could not agree with you more, Mr. Holt. One of the great 
virtues of this man is certainly his valor and his honesty and 
his integrity. Whether it is the bravery and valor that he 
shows in being Jefferson's voice in the Continental Congress--
to really get this done. Jefferson was not a good speaker. He 
had a squeaky voice and did not like to speak. He had a great 
pen, but Adams was the voice. He was the chair of many of the 
Committees, most of the Committees that got this done. As you 
mentioned, being in that kind of prominent role could very well 
have resulted in him being hung and going to the gallows.
    He not only showed it then, he showed it as President when 
it would have been very popular to declare a war against 
France. He resisted that popular temptation, probably cost him 
another term as a President, but probably helped us preserve 
the country. A costly war may have bankrupt us and sent us to 
an early grave. So, I think that is absolutely a character that 
needs celebration. I think you will hear plenty from Joseph 
Ellis, who wrote The Passionate Sage; and from David 
McCullough, who now has the bestseller out there with his book 
on John Adams.
    Mr. Holt. Mr. Chairman, may I have one moment? I think it 
is also important that we mention at this hearing the courage, 
if you will, of John Adams' wife, Abigail Adams. One only has 
to read the first 100 pages of the McCullough biography to 
truly appreciate the heroism of this leading figure. I do not 
base that on her gender, but clearly a leading figure in the 
early history of America. She was truly a remarkable woman.
    Mr. Hefley. Mr. Duncan?
    Mr. Duncan. Thank you, Mr. Chairman, and I want to welcome 
all of our colleagues and thank them for their good work. We 
have these three bills before us today which vary widely in the 
scope and what they do, but all three are very interesting and 
very significant pieces of legislation. I took almost all of my 
undergraduate electives in history and I have always especially 
loved American history, and I have told many, many people, on 
tours of the Capitol, the story of John Quincy Adams and how he 
served first as President and came back and served from 1831-
1848 in the House, and how many people feel that he did some of 
his greatest work when he was in the House of Representatives.
    This is a very significant and important family in the 
history of this Nation. Congressman Roemer, I was fascinated by 
your recitation of all of the important things that they had 
been involved in and I commend you for this legislation, and I 
especially appreciate the fact that when most of the groups 
that come before us are seeking money, and admire and respect 
the fact that this foundation is willing to establish this 
memorial on its own. I think that is very good.
    I especially want to comment at this time about Congressman 
Wamp's legislation, because he had and I represent adjoining 
districts and have worked very closely together on many, many 
things. In fact, I have said that I do not believe that any 
member that I know of in Tennessee has done more for our State 
or more for his district than Zach Wamp has. I greatly respect 
the work that Congressman Wamp has done, and he has, I know, 
worked very hard to forge a compromise, a consensus, on this 
legislation on Moccasin Bend. I know the Park Service has some 
problems with it; the fact that there is a mental hospital and 
a golf course that will remain there under this legislation. 
They call it incompatible, but we have a similar situation in 
my hometown of Knoxville.
    The Lakeshore Mental Health Institution, for many years, 
was fenced and nobody was allowed in and it was a place of very 
high security, but a few years ago, when the movement started 
to mainstream people with mental illness--we opened up the 
Lakeshore grounds. They were turned into a park with a walking 
and jogging trail, and several little league ballfields, and 
all kinds of activities; picnics, baseball games, hiking or 
jogging and walking go on throughout those grounds all the 
time. There is not a golf course there, but all of those things 
go on, and we have turned that into probably the most popular 
city park in the city of Knoxville. It is not a part of the 
National Park Service. It does not have the Native American 
history and background that Moccasin Bend does, but I 
appreciate what Congressman Wamp has done in regard to this 
legislation.
    You could never satisfy government's appetite for money or 
land. You cannot do it. If we gave every agency twice as much 
money as we give them now, within a short time, they would be 
coming back to us for more, and we all recognize that. You 
cannot satisfy government's appetite for land, but the Park 
Service should be happy to get this--is it 911 acres?
    Mr. Wamp. Yes, sir.
    Mr. Duncan. I know this is very difficult from a highway 
project and also from a bridge project in my district--it is 
very hard to work many of these thing out when you have these 
Native American artifacts and burial grounds and so forth. But, 
this is a compromise that has been worked out. I know you said 
that the Chattanooga Times and the Chattanooga News Free Press 
almost never agree on anything, and I know that to be true. I 
don't really have any questions at this point. I will simply 
say that I think all three of these bills are good legislation 
and deserve our support, and if Mr. Gibbons gets his senior 
citizen center for his district, I am going to try the same 
thing for a county in my district, too.
    Mr. Gibbons. I will support you for that.
    Mr. Duncan. Thank you.
    Mr. Hefley. Mr. McGovern?
    Mr. McGovern. I, too, want to commend all my colleagues for 
their testimony and I would like to submit a longer statement 
for the record. I also want to ask unanimous consent that a 
statement by ranking member, Mr. Rahall, in support of H.R. 
1668, be part of the record.
    Mr. Hefley. Without objection.
    [The prepared statement of Mr. Rahall follows:]

Statement of The Honorable Nick Rahall, Ranking Democrat, Committee on 
                               Resources

    As this bill's language points out, somewhere along the way, we 
lost sight of the extraordinary national contributions of John Adams 
and those of his wife Abigail and their offspring. Among the gleaming 
marble facades of our presidential constellation along our national 
mall, among the many sites where we pay homage to individuals 
throughout America's history here in our Nation's Capital, there is a 
void, an Adams void, that should be filled.
    I want to thank historians Joseph J. Ellis and David McCullough for 
being here today to make the case for an Adams Memorial, and also for 
reigniting interest in the life and legacy of John Adams and his 
family. I am pleased to take this opportunity to reinforce their 
message with some other voices from our history.
    Though we as a Nation are reacquainting ourselves with the Adams 
family, primarily thanks to the two gentlemen testifying today, near 
and at the end of John Adams' life, Adams was remembered along side the 
other founders as part and parcel to their ultimate success.
    Former Librarian of Congress Daniel Boorstin has highlighted for me 
a passage in a letter Thomas Jefferson sent Adams recalling the joint 
efforts of the two old revolutionaries, ``We were fellow-laborers in 
the same cause... Laboring always at the same oar, with some wave ever 
ahead, threatening to overwhelm us, and yet passing harmless under our 
bark, we knew not how we rode through the storm with heart and hand, 
and made a happy port... and so we have gone on, and shall go on 
puzzled and prospering beyond example in the history of man.''
    In 1826, Daniel Webster commemorating the lives of Adams and 
Jefferson on their demise, placed them side by side. Webster 
proclaimed, ``They live in their example: and they live, emphatically, 
and will live, in the influence which their lives and efforts, their 
principles and opinions, now exercise, and will continue to exercise, 
on the affairs of men, not only in their own country but throughout the 
civilized world.''
    ``A truly great man,'' Webster continued, ``is no temporary 
flame.'' Rather he concluded it is ``a spark of fervent heat, as well 
as radiant light, with power to rekindle the common mass of human kind; 
so that when it glimmers in its own decay, and finally goes out in 
death, no night follows, but it leaves the world all light, all on fire 
from the potent contact of its own spirit.''
    It is time we reignited the flame of Adams genius and work. Our 
flint and steel will be an interpretive memorial for generations to 
visit, perpetually sparking their curiosities of this great American, 
John Adams, and his family.
    Joseph Ellis has called Adams, ``the supreme political realist of 
the revolutionary generation'' and cautions, ``Adams tells us what we 
need to know. Perhaps now, and only now, are we prepared to listen.''
    David McCullough reminds us of Adams' clarity and vision for 
America's tomorrow, when upon the fiftieth anniversary of our 
independence Adams chose precisely two words: Independence forever!
    As an American, and as the Ranking Democrat of the House Resources 
Committee, I can only humbly add to the efforts to create an Adams 
Memorial two words: Build it.
                                 ______
                                 
    Mr. McGovern. I want to commend, in particular, my 
colleagues, Mr. Roemer and Mr. Delahunt, for their really 
eloquent testimony and for their advocacy for this important 
memorial to John Adams, and indeed, to the Adams family. I also 
want to thank them, and Dr. Ellis and David McCullough, for 
giving this Committee and giving the Nation an important 
history lesson. I think many are just beginning to appreciate 
what an incredible man John Adams was, and what an incredible 
family that he belonged to. We are grateful for your advocacy 
and making us aware of that.
    Honoring John Adams is long overdue. I think this is an 
important piece of legislation. I am glad I am a co-sponsor and 
I hope that we can meet the challenge that Mr. Roemer and Mr. 
Delahunt have put before our Committee, that we report this 
legislation out and get it enacted upon before July 4th. I 
think that is the best way we can pay tribute to the second 
President of the United States and to his family. I thank you 
for the time, and I yield back.
    [The prepared statement of Mr. McGovern follows:]

   Statement of The Honorable James P. McGovern, a Representative in 
                Congress from the State of Massachusetts

    I would like to thank the distinguished Chairman, Mr. Hefley for 
holding today's hearing on H.R. 1668, a bill authorizing the Adams 
Memorial Foundation to establish a commemorative work on Federal land 
in the District of Columbia to honor former President John Adams and 
his family. I would like to thank Mr. Roemer and my distinguished 
colleague from the Commonwealth of Massachusetts Mr. Delahunt for 
introducing this bill, and I urge this committee to report H.R. 1668 to 
the House before the July 4th recess. I would also like to thank the 
distinguished panelists for being here today.
    John Adams was not just a noble president, but he was also a great 
man. The son of a farmer in Quincy, Massachusetts, he attended Harvard 
College. After graduation, he took a position teaching grade school in 
my home town of Worcester, Massachusetts, where he quickly became 
preoccupied with other legal matters. After finishing an apprenticeship 
under James Putnam, a distinguished Worcester lawyer, he moved back to 
Braintree to practice law. In 1770, John Adams took a courageous stance 
by defending the British soldiers who were involved in the Boston 
Massacre.
    As we all know, Adams was not just a great attorney, but a great 
writer and statesman as well. While he lived in Massachusetts, Adams 
drafted the Massachusetts Constitution, our nation's first State 
Constitution. This document served as a model for the United States 
Constitution. Adams was extremely patriotic and attended the second 
Continental Congress. He influenced the actual creation of the United 
States by delivering a speech at the second Continental Congress to 
support the Declaration of Independence that Jefferson exclaimed ``'' 
moved us from our seats.'' And his support for the United States did 
not waiver during the American Revolutionary War.
    Although Adams did not fight in the war, his enormous contributions 
to the United States during the Revolutionary war helped save the 
Union. During this time, John Adams went to the Netherlands to 
negotiate a treaty. This treaty provided the United States with much 
needed money and the recognition that the allowed the United States to 
secure other loans. As the Revolutionary War ended, John Adams also 
helped negotiate the Treaty of Paris that ended the Revolutionary War. 
The young nation started to develop under the Articles of 
Confederation, but they did not provide for a strong unified National 
government. The founding fathers then started to draft a new 
Constitution, and after much debate and discussion, they agreed on the 
current Constitution. It was written in 1787 and finally ratified by 
all 13 states in 1790.
    In 1789, John Adams was elected Vice President under George 
Washington. When Washington decided not to run for a third term, Adams 
ran and was elected as the second President of the United States and he 
was the first President to serve in Washington D.C.
    During Adams presidency, there was a great deal of tension between 
the United States and France. Both sides were prepared to go to war 
over the commercial and political problems that existed at the 
beginning of Adams' term, a war that surely would have been disastrous 
for the United States. Adams was able to negotiate a peace treaty and 
prevent a war, but only at the cost of his own political popularity. 
Adams did not win a second term.
    While the main focus of this legislation is to provide John Adams 
with the admiration and attention he deserves, it also acknowledges the 
contribution of the entire Adams family. Abigail Adams was a strong 
patriot and promoted women's rights. She was also an extraordinary 
writer. Her legacy, while not as well known as her husband, should also 
be given the gifted tribute that she deserves. And contributions of the 
Adams family do not stop with John and Abigail Adams. John Quincy 
Adams, the son of John and Abigail Adams, served as ambassador to the 
Netherlands and to Russia. Before being elected president, John Quincy 
Adams was Secretary of State under President James Monroe. As Secretary 
of State, he helped negotiate the Treaty of Ghent that ended the War of 
1812. He also helped move the United States into a position of power by 
authoring the Monroe Doctrine that declared that the Western Hemisphere 
was off limits to European expansion. As president, he started 
conservation and other projects that would enhance the country. These 
enhancements included the building of the C&O canal, a university, and 
an observatory. John Quincy Adams was an extremely influential 
president who was critical in uniting the country, and the only 
president to be elected to the U.S. House of Representatives after he 
left the presidency. While he was in the House of Representatives, he 
fought against the congressionally imposed ``Gag rule'' that was 
Congress' attempt to end all debates on slavery and prevent the topic 
from surfacing again. John Quincy Adams used his power as a 
representative to get this rule removed. John Quincy Adams collapsed 
from a stroke on the House floor and died a couple of days later.
    I am certain the addition of a monument for John Adams will finally 
give honor to the legacy of a family that has played a significant role 
in the foundation of the United States. Again, I urge the committee to 
report this bill before the July 4th recess.
    Thank you, Mr. Chairman, and I request that my statement be 
included in the record of this hearing.
                                 ______
                                 
    Mr. Hefley. Thank you very much.
    Mr. Gibbons?
    Mr. Gibbons. Thank you very much, Mr. Chairman, and to my 
colleagues who have presented this Adams family memorial 
proposal. I think when I talk to children, this type of 
memorial, which would educate a great deal of our American 
public about the successes and wonderful contributions this 
family gave to our country, would go a long way to dispel the 
TV concept of the Adams family. You have to get children to 
understand that. I think it is a great idea. It is a wonderful 
idea. I wish we could make individual memorials to each of the 
members rather than a memorial to a family. We do memorials to 
Presidents, great Presidents like Jefferson and Lincoln, and we 
should be able to do the same for John Adams, John Quincy 
Adams, as well, but this is a great contribution.
    I know my colleague from Tennessee has worked long and hard 
on this compromise process for his bill, and I think it is very 
meritorious. I joined with my colleague, also from Tennessee, 
in support of your effort in that regard. With that, Mr. 
Chairman, I have no other questions and yield back.
    Mr. Hefley. Thank you, Mr. Gibbons.
    Mr. Souder?
    Mr. Souder. First, I want to congratulate my friend from 
Indiana in his tremendous pushing of this bill. I think it is 
very important. I am an enthusiastic co-sponsor. I read Peter 
Shaw's book on the character of John Adams probably 25 years 
ago and it had a major impact on me--Nagel's book--in addition 
to the two tremendous authors you managed to bring today, they 
are kind of my rock stars. If they had been real rock stars, I 
would still be home with my family this morning rather than 
here in Washington. They are my rock stars and my type of 
heroes from a whole series of books that you both have 
brilliantly written in addition to the Adams books.
    Also, I could not resist the chance to come with my friend, 
Bill Delahunt, back when Massachusetts produced conservatives--
it is just so thrilling to see the party of Jefferson pushing 
the Adams leaders. I had one substantive question related to 
the Adamses, and that is, do either of you have an idea of what 
type of memorial you are thinking? Would it combine a museum 
with it? Could you elaborate a little bit on that, knowing 
there would be a commission to research that?
    Mr. Roemer. First of all, I want to thank my good friend 
from our great State of Indiana, not only for his interest in 
the sponsorship of the legislation, but his ongoing interest in 
history throughout. He and I, over our career, have had many, 
many discussions about the history of Indiana, and you were one 
of the people I sought out in a bipartisan way to support this 
legislation. You came on right away and we appreciate that.
    Mr. Chairman, just to make a point on that, Mr. Souder and 
Mr. McGovern, who probably agree on nothing else, agree that we 
need to do this, hopefully, before July 4th, and hopefully, we 
can get that done.
    To my good friend from Indiana, as he knows, this 
legislation simply authorizes the three commissions--the Fine 
Arts, the Planning and the Memorial Commissions--to then go 
forward and design a fitting tribute to this family. You know, 
in my wildest fantasies, what do I see happening with regard to 
what this could or might or should look like? Could it be in 
the Tidal Basin, near Thomas Jefferson's and George 
Washington's monument? I think he deserves it historically, 
with his contributions, called the Colossus of Independence 
with his virtue and character.
    Might it have some attachment to Abigail, his wife of 54 
years, who wrote letters, probably of equal content and 
intelligence of John Adams and maybe Thomas Jefferson? I think 
it should include her.
    Might it include John Quincy Adams and other dissidents? I 
think it should have that possibility. I would, however, 
caution a museum. I do not think that we should probably go 
that route. Mr. Delahunt, do you have any comments?
    Mr. Delahunt. Yes, I concur with Tim's comments. Again, in 
terms of specific contributions by John Adams, and to a lesser 
degree, John Quincy Adams, his efforts in behalf of an 
independent judiciary are just simply of such a magnitude that 
somehow they have to be recognized. I am confident that in 
Boston, for example, the supreme judicial court there is fully 
cognizant of the fact that there has been an omission in terms 
of recognition of his contribution to the judicial branch. Now, 
again, as Tim indicated, we all have our own fantasies. I do 
not know if there is any particular area over by the United 
States Supreme Court, but clearly, his contribution to the 
judicial system, in some way, in some venue, it is mandatory, 
it is compelling to be recognized. I also agree with him about 
the museum concept.
    Mr. Roemer. I love the comment in the beginning of 
Passionate Sage where Adams, they said, if he wanted a 
memorial, he wanted it to be able to cast a shadow over 
Jefferson's and Jefferson's over his, because that is what they 
did much of their career.
    Mr. Chairman, I would like to ask a question of Mr. Wamp, 
if I may, as well. I am pleased to hear your testimony and 
presentation today as a fellow classmate. We have done many 
things together. I have two particular questions as I look to 
understand the bill more. You are not necessarily advocating 
that it is a park itself, but something within the Park 
Service; is that correct?
    Mr. Wamp. A separate unit, because it has its own identity. 
I respect all of my colleagues' position about not adding any 
more land into the Park Service because of the backlog 
maintenance. I, too, have been fighting that challenge and 
dealing with that for a number of years, but this has such 
individual historical context that it needs to be a separate 
unit. So, it would be a separate unit standing on its own.
    Mr. Roemer. It would be a separate unit, but it could be, 
for example, a historical park, a historical--they each have 
slightly different--a park has a much more purist position, 
that in the areas of where there is a golf course and a mental 
health institute, are you proposing that the unit itself would 
currently include those, or only when those are removed, or 
could the park be noncontiguous, such that it goes around 
those? Boston, for example is not all contiguous. I know that 
is one of the concerns. The ideal thing is to have it be a 
perfect unit, but I have some concerns if these would be 
brought inside of a park unit and not under their control. I 
did not fully understand that.
    Mr. Wamp. The boundary of the park, as the bill proposes, 
would include the hospital, but the hospital would be 
grandfathered in under its current use, as long as it continues 
to be a mental health center run by the State of Tennessee. If 
the State ever closes it, the State would clean the site up and 
the property would be returned to its original condition. It 
would be within the park boundary, because the national 
historical significance of this site really must include the 
footprint of the hospital. The reason Governor Clement did not 
sign the legislation 51 years ago, adding this, was he had 
plans to build a mental health center out there. At that time, 
they put them in places where people could not escape. The bend 
is surrounded by water, so people could not swim across the 
river, which today would not even be an acceptable alternative.
    The hospital must remain open to meet the needs of nearly 
2,000 people that have to have that hospital. We cannot have a 
squeeze play from the Federal Government to force the State out 
of the mental health services business, so we crafted a 
compromise that grandfathers it in under its current use, and 
at whatever point the State provides an alternative to Moccasin 
Bend, it will be closed and cleaned up by the State. Then it 
will just be raw land as part of the National Park.
    The golf course was left out, because it is owned by the 
city and county, but we put a unique provision in that if it 
ceases to be a golf course run by the city and county, it can 
be added at that time. Under both of these compromises, it 
allows or creates the support from all the stakeholder groups 
that simply is not going to be there without it. Our local 
government will not support this proposal if it closes the 
hospital, even 14 years from now, because the State has no new 
land for a new facility. They have not initiated any plans to 
build a new facility, and our criminal justice system has to 
have a place to send prisoners who need mental health services. 
That place has to be in our county.
    This is a big issue. Frankly, it is one that the planning 
team does not understand. There are people from other places in 
this country that come and present their findings, and I 
respect that, but they are not sensitive to local needs and the 
consensus-building process that is necessary for us to honor 
the stakeholders' interest. That is what we have done, built 
consensus. We came up with a compromise that people from the 
far left to the far right, logical, sensitive, local people 
support, and while I respect the Park Services planning 
recommendations, frankly, if we stuck by the letter of their 
recommendations we would not have local support. Thank you.
    Mr. Souder. Thank you.
    Mr. Hefley. Mr. Gibbons, let me ask you, is everybody on 
board on this transfer of the 4.5 acres?
    Mr. Gibbons. Yes, from a delegation standpoint, all of the 
members of the State of Nevada are on board. The communities of 
Carson City and the Governor, as well, are in support of this 
transfer.
    Mr. Hefley. Bureau of Land Management?
    Mr. Gibbons. Bureau of Land Management would like, of 
course, for the city to pay fair market value, but absent that, 
they are in support of the conveyance.
    Mr. Roemer. Mr. Chairman, could I have 20 seconds as you 
get ready to introduce these next two witnesses? Let me just 
say--a play on the old, if you build it, they will come--if you 
write it well, they will read it. We have two historians here 
that I am so grateful took time out of their busy schedule to 
come to talk about the Adams family. David McCullough has a 
bestseller out there right now at the top of the list selling 
like hot cakes. It is rich in its history and thorough in its 
research and Americans are running to the bookstores to buy it 
and to read it. What a wonderful thing to see in this country.
    Joseph Ellis, Dr. Ellis, who wrote the Passionate Sage, 
laying the groundwork for John Adams, has come out recently 
with his Pulitzer prize-winning book, Founding Brothers, that 
has been on the bestseller list now for 25 weeks, going on 26 
weeks. Americans are buying it and reading it. I think this is 
a real tribute to our scholarship in this country, but also to 
our citizens; that if we produce good history, they will buy it 
and read it. I hope that this hearing leads to even more 
researchers out there writing the kind of history that Mr. 
McCullough and Dr. Ellis have been doing for years. Thank you.
    Mr. Delahunt. Mr. Chairman, could I just make a concluding 
comment? As Tim indicated, he had the opportunity to visit the 
venue where so much of American history was crafted by visiting 
the Adams historic park. I would like to make a formal 
invitation to yourself and to members of the Committee to come, 
to visit, to see Quincy, Massachusetts. It would certainly be 
my pleasure to host you and your colleagues on the Committee. 
Maybe we can even make a side trip to America's hometown, 
Plymouth, Massachusetts, and even spend some time on Cape Cod. 
Thank you.
    Mr. Hefley. Thank you very much. Let me ask before this 
panel leaves. Zach, I think you gave an excellent explanation 
of this. It appears to me that the Park Service is willing to 
give up the good because they are not getting the perfect. 
Would you comment on that?
    Mr. Wamp. That is my notes, literately, that this is a 
perfect example of the perfect being the enemy of the good. 
They have not been involved, the Park Service Planning Team, in 
the consensus-building process. They wrote the study. They did 
a great job, and that has been months and literately years ago 
since they finished their study. Since then we have had to 
build consensus from all these different groups: the Five 
Civilized Tribes, frankly, Local Government, State Government, 
the mental health community, and 1,200 golfers signed a 
petition saying do not close our golf course. Well, these are 
legitimate people. I have a lot of Cherokee blood in my veins, 
Chairman Hefley, and the Cherokees loved games. They used 
sticks and balls and played games. I do not think my Cherokee 
ancestors would say to forcibly close this golf course, when no 
one here has talked about what is next to the golf course.
    There is a sewage treatment facility, a massive, 
multimillion dollar smelly, stinky sewage treatment facility on 
the other side of the golf course, and the golf course serves 
as a perfect buffer between the National Park proper and this 
smelly sewage treatment facility. Why in the world would you 
spend $2 million to tear the golf course down, when the golf 
course is a perfectly good and not , in my view--they say it is 
nonconforming use. I disagree. I have been to Yosemite Valley. 
There is a golf course in Yosemite Valley. I do not think that 
golf is necessarily Anti-National Park Service.
    I do think they are letting the perfect be the enemy of the 
good, and we have built consensus, and they have not been 
involved in that consensus. They are professionals, and in this 
case, they are just bureaucrats. We have to deal with reality. 
We have to deal with people and we forged consensus. Now 
everybody that is thoughtful, that is on the ground in our 
local community is favor of it, and I thank you for pointing 
that out.
    Mr. Hefley. Mr. Wamp, the record will show that it is your 
feeling that the Cherokee invented golf rather than the Scots; 
is that correct?
    Mr. Wamp. There are some days I wish they would not have.
    Mr. Hefley. Mr. Roemer and Mr. Delahunt, I am somewhat 
embarrassed, had you not brought this to my attention, and I 
had to prepare for this particular hearing--and I am a lover of 
American history, as Mr. Duncan indicated he was, and yet how 
little I know about John Adams. You know he was one of the 
founding fathers and all that kind of thing, but in the 
specific sense, how little I know. So, what you are pursuing 
here, I think, has tremendous value in terms of educating us 
about, not only John Adams, but a tremendous family of public 
servants. Let me ask you, why not sooner? Where did he fall 
between the cracks of recognition? Obviously, the contribution 
was so enormous, why have we not done this sooner?
    Mr. Roemer. I would simply say that you are probably going 
to get a better answer from the two people after me than you 
will from me, but just as a guess, I would say; one, that he 
was overshadowed by people like Thomas Jefferson and George 
Washington, certainly two eminent people deserving of where 
they are, although in some of the later scholarship, I think 
there are some various opinions coming out and some conflicts 
coming out on Thomas Jefferson. Certainly, George Washington 
remains at the apex of the mountain and John Adams should have 
been up there, but was overshadowed by some other people.
    I think, secondly, John Adams had an inaccurate reputation 
as being overly cranky and self-absorbed, and maybe speaking 
too quickly without letting a filter, probably politically 
correct some of the things he was going to say. Actually, he 
had one of the best senses of humor of any of the founding 
brothers, as Joseph Ellis calls them, and if you read the 
correspondence that he engages in, you cannot help but love 
this man. He is an extraordinary individual in every sense of 
the word. So, I think he has been overshadowed and I think 
accurately portrayed in some ways, and I think it is high time 
that we corrected those two problems.
    Mr. Delahunt. If I may add, Mr. Chairman, I think and I 
refer back to the quote that I made in my opening remarks, it 
is clear that John Adams did not seek notoriety, and he made 
efforts I would suggest, and you can pose that same question to 
these two historians that will succeed us at the witness table, 
but he did not covet, if you will, the attention and the 
accoutrements of recognition. Maybe he needed a better 
communications director than the one he had, but certainly has 
done very well with Joseph Ellis and David McCullough. I think 
their efforts will serve as a catalyst to raise public 
awareness of the contributions, not just of John Adams, but as 
Tim has indicated, John Quincy Adams and a number of 
generations of the Adams family, and hopefully, give them their 
proper place in American history.
    Mr. Hefley. None of you mentioned that John Adams is 
credited with introducing the distinctive manner of speech of 
folks from Massachusetts, particular from Boston; is that 
correct?
    Mr. Delahunt. That is absolutely correct, Mr. Hefley. He 
had trouble with his r's.
    Mr. Hefley. Thank you very much, and please feel free to 
join us on the dais for the remainder of the hearing. We are 
going to have a panel of administration officials very briefly, 
first, before we go to the historians.
    Mr. Holt. Mr. Chairman, just very quickly I wanted to thank 
the gentleman from Massachusetts, Mr. Delahunt, for the 
invitation. In fact, I intend to be in your area this weekend 
and would appreciate a tour guide. Thank you.
    Mr. Delahunt. I would be happy to do it.H.R. 271, 980 and 
1668
    Mr. Hefley. The second panel is Mr. Carson ``Pete'' Culp, 
Assistant Director for Minerals, Realty and Resource 
Protection, Bureau of Land Management; and Mr. Denis Galvin, 
Acting Director of the National Park Service. If they will join 
us at the table.
    Mr. Culp, we will start with you and try to hold your 
testimony to 5 minutes, if you would, and your entire statement 
will be put into the record.

   STATEMENT OF CARSON ``PETE'' CULP, ASSISTANT DIRECTOR FOR 
   MINERALS, REALTY AND RESOURCE PROTECTION, BUREAU OF LAND 
                  MANAGEMENT, WASHINGTON, D.C.

    Mr. Culp. Thank you, Mr. Chairman. I will be very brief. 
You and Mr. Gibbons and Mrs. Christensen certainly summarized 
H.R. 271 very well. The bill would transfer what to us is an 
isolated parcel of land, which we once used as a wareyard for 
one of our local offices to the city of Carson City for use in 
senior citizens facility. BLM in Nevada is in favor of this 
legislation, and the administration is not opposed. The 
proposed use of the land is certainly a higher and better use 
than its retention for no Federal purpose at this point.
    The only other thing I would add is, there might be a 
question about why legislation is necessary. Normally, we would 
use of vehicle called the Recreation and Public Purposes Act 
for a transfer of this nature, where we can do a below-market 
value long-term lease or sale. It is a bit of a quirk of that 
law that since this is in-part a residential facility, we 
cannot use that act. Hence, the legislation is appropriate. 
Thank you.
    [The prepared statement of Mr. Culp follows:]

 Statement of Carson Pete Culp, Assistant Director of Minerals, Realty 
    and Resource Protection, Bureau of Land Management, on H.R. 271

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today to testify on H.R. 271, a bill 
to direct the Secretary of the Interior to convey a former Bureau of 
Land Management (BLM), administrative site in Carson City, Nevada, for 
use as a senior center.
    Generally the BLM does not support the transfer of federal land to 
an entity that possess the ability to acquire the property at fair 
market value. Such transfers could deny other parties the opportunity 
to acquire the land for recreational or public purposes. Nonetheless, 
the BLM may have no objection to a transfer where (1) the entity has 
demonstrated limited funding capability, (2) the land is being used for 
the intended public purposes, and (3) the monetary value of the land is 
not likely to be significant. Likewise, the BLM may not oppose a 
transfer where a general, yet meritorious public benefit has been 
identified. Such is the case here. H.R. 271 presents an opportunity to 
address the community's need to care for its senior citizens by 
transferring property which is no longer of use to the BLM. The BLM, 
therefore, does not oppose this conveyance or this legislation.
    The administrative site described in H.R. 271 was previously used 
by the BLM as a vehicle and supply storage facility in conjunction with 
the BLM's Carson City Field Office. In the autumn of 1997, it ceased to 
be used for these purposes and has since been vacant. The City of 
Carson City wishes to acquire the parcel for use as an assisted living 
center in conjunction with existing city-operated health care 
facilities. An existing Senior Center and intensive care facility are 
located adjacent to the subject property. In May 1998, the City 
submitted an application under the Recreation and Public Purposes Act 
(R&PP) for a residential facility to provide extended care to Senior 
Citizens. However, the residential aspect of the assisted living 
facility did not qualify under the R&PP Act. In response, BLM 
considered selling the property to the City by direct sale at fair 
market value. However, the City indicated that it could not afford to 
purchase the parcel as the subject property is located in downtown 
Carson City where real estate values could easily exceed $300,000.
    I will be pleased to answer any questions you may have.
                                 ______
                                 
    Mr. Hefley. Thank you very much.
    Now, Mr. Galvin?

   STATEMENT OF DENIS GALVIN, ACTING DIRECTOR, NATIONAL PARK 
                   SERVICE, WASHINGTON, D.C.

    Mr. Galvin. Thank you, Mr. Chairman. I have testimony on 
two bills, H.R. 980 and H.R. 1668, and I will simply summarize 
my statements and submit them for the record. H.R. 980, as has 
been amply testified to this morning, would establish the 
Moccasin Bend National Historic Site as a separate unit of the 
National Park Service. The department recommends that the 
Committee defer action on H.R. 980 during this session of 
Congress, so that the National Park Service is able to make 
further progress on the President's initiative to eliminate the 
deferred maintenance backlog.
    Furthermore, even without that policy, the department does 
not support H.R. 980 in its current form. We believe that if a 
National Historic Site is to be established at Moccasin Bend, 
it should be done in accordance with the preferred alternative 
presented in the National Park Service's Cooperative Management 
Plan Environmental Assessment for Moccasin Bend. Earlier 
testimony has pointed out that there are a couple of 
incompatible uses in the area, and the National Park Service 
would like to see some arrangement that insures the long-term 
removal of those sites, so that important archeological 
resources and public use can be accommodated.
    Most of the area of Moccasin Bend is already a national 
historic landmark. It includes an incredible layer of important 
history. The Federal road between Ross Landing and Brown's 
Ferry, that was part of Trail of Tears, it was used during the 
Civil War by the Union Army. The bill also includes a small, 
private parcel known as the Saradino and Clemish property.
    The State of Tennessee and local authorities own most of 
the land within Moccasin Bend, although there are some private 
holdings. Most of the authorization would be acquired by 
donation, exchange or purchase from willing sellers. It 
specifically provides that the Secretary may not accept a 
donation of the parcel containing the Moccasin Bend Mental 
Health Institute, one of the two major incompatible uses, until 
after the facility is no longer used to provide health care 
services. H.R. 980 excludes from the boundary of the National 
Historic Site, part of the archeological district that is 
currently leased for a golf course. In fact, the bill prohibits 
the Secretary from proposing that the golf course be included 
in the boundary until it is no longer used as a public or 
municipal golf course. The bill includes authority for the 
Secretary to enter into cooperative agreements, which is 
useful, allows the Secretary to use a portion of the visitor 
center proposed to commemorate the Trail of Tears, which is 
part of a long distance historic trail.
    Mr. Wamp adequately pointed out that previous legislation 
authorized the Governor of Tennessee in 1950 to donate 1,400 
acres of Moccasin Bend to the Department of Interior to make it 
part of Chickamauga and Chattanooga National Military Park. 
There was no development on the site at the time, but as Mr. 
Wamp pointed out in his history, development has taken place 
since then.
    There is no question about the national significance of the 
resources on the site. In fact, it contains an unusually rich 
medley of historic resources, including archeological remains 
as much as 10,000 years old. They include transitional 
paleoarchaic and archaic sites, woodland period settlement 
sites and burial mounds, fortified protohistoric villages, 
Spanish exploration and settlement of the southeastern United 
States, contact between native and non-native peoples, part of 
the Trail of Tears National Historic Trail, and the location of 
union earthworks from the Civil War. It was listed on the 
National Register of Historic Places in 1984 and 956 acres--the 
bill proposes 911--was designated as the Moccasin Bend 
Archeological District National Historic Landmark in 1986.
    The National Park Service study, completed in 1999, found 
the site nationally significant. It found the site suitable as 
a unit of the National Park Service since no other site in the 
National Park Service currently contains such a diverse record 
of human habitation in North America. It is a feasibility 
question that raises our reservations about the bill as 
currently drafted, and that is, specifically, the incompatible 
uses of the mental health hospital and the adjacent golf 
course. I would point out that we are not anti-golf. It is just 
that the golf course contains important archeological 
resources, including a site along the southern boundary where 
adjacent archeology indicates 10,000-year-old settlements 
occurred.
    The study recommended, not that the incompatible uses be 
stopped immediately, but that a date be set at some time in the 
future when those incompatible uses were terminated. Mr. Wamp 
has indicated in a conversation prior to this hearing that that 
is not acceptable to the State and local interests. Perhaps 
there is some middle ground that we can craft with Mr. Wamp and 
with this Committee so that there is more assurance that the 
incompatible uses will end someday, while not removing them at 
the present time.
    I would just like to reiterate that this is a very 
significant natural resource that has potential if certain 
conditions are met, to be an important addition to the National 
Park System. That concludes my summary of statement on Moccasin 
Bend. I can go on to the Adams testimony, if that is the 
chair's pleasure.
    H.R. 1668, as eloquently testified to earlier, authorizes 
the Adams Memorial Foundation to establish a memorial in the 
District of Columbia and its environs to honor former President 
John Adams and his wife, Abigail, former President John Quincy 
Adams and his wife, Louisa, and their legacy of public service. 
The department supports enactment of H.R. 1668. This position 
is consistent with the recommendation of the National Capital 
Memorial Commission, which endorsed the bill by a unanimous 
vote on April 26, 2001.
    The bill is in accordance with the provisions of the 
Commemorative Works Act of 1986, which establishes a process in 
which a plan is submitted for the site and design of the 
memorial at a future date. The bill also provides that no 
Federal funds shall be used to pay any expense of the 
establishment of the commemorative works. The Adams Memorial 
Foundation would be responsible for, not just the cost of the 
construction of the memorial, but also for establishing a fund 
in the Treasury equal to 10 percent of the cost of construction 
for catastrophic maintenance and preservation. That is also 
consistent with Section 8(B) of the Commemorative Works Act.
    I believe the previous witnesses and subsequent witnesses 
would be far better qualified than I to point out the 
significance of the Adams and Adams family in American history. 
I would only say that it was my privilege when I was stationed 
in Boston to work closely with the Adams National Historic 
Site, the Adams birthplace and the churches in Quincy that were 
important to the Adams family. That experience acquainted me 
with current members of the Adams family, who are still 
prominent American citizens in their own right, and gave me an 
opportunity to know the important contributions that this 
family has made to the United States over two centuries.
    That concludes my summary statement, Mr. Chairman. I would 
be happy to answer questions on either of these bills.
    [The prepared statements of Mr. Galvin follows:]

 Statement of Denis P. Galvin, Acting Director, National Park Service, 
              U.S. Department of the Interior, on H.R. 980

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 980, which would establish 
the Moccasin Bend National Historic Site in Chattanooga, Tennessee as a 
unit of the National Park System.
    The Department recommends that the Committee defer action on H.R. 
980 during this session of Congress so that the National Park Service 
is able to make further progress on the President's Initiative to 
eliminate the deferred maintenance backlog. In order to focus staff and 
resources on existing national park units and other types of designated 
areas, the Department will not support new designations at this time. 
We will reevaluate our progress on fulfilling this commitment during 
the second session of the 107th Congress.
    Furthermore, even without our policy regarding designations of new 
units, the Department does not support H.R. 980 in its current form. We 
believe that if a national historic site is to be established at 
Moccasin Bend, it should be done so in accordance with the preferred 
alternative presented in the National Park Service's Cooperative 
Management Plan/Environmental Assessment for Moccasin Bend. That 
document, which served as a special resource study of the area, 
supports establishing the area as a unit of the National Park System 
only if current incompatible uses of the area are removed so that the 
National Park Service has the ability to ensure the long-term 
protection of the resources and to accommodate public use. H.R. 980 as 
introduced does not adequately address incompatible uses at Moccasin 
Bend.
    H.R. 980 would establish the Moccasin Bend National Historic Site 
comprised of most of the area that has been designated the Moccasin 
Bend Archeological District National Historic Landmark. It would also 
include a portion of the Federal Road between Ross Landing and Browns 
Ferry that was part of the ``Trail of Tears'' traveled by the Cherokee 
Indians during their removal from their ancestral lands to Oklahoma 
during 1838 and 1839, and that was used during the Civil War by the 
Union Army to break the Confederate siege of Chattanooga. And, it would 
include a small private parcel known as the Serodino and Klimsch 
property.
    The State of Tennessee and local authorities own most of the land 
within Moccasin Bend, although there are some private holdings in the 
area. H.R. 980 would authorize the land within the proposed boundary of 
the national historic site to be acquired by donation, exchange, or 
purchase from willing sellers. It specifically provides that the 
Secretary may not accept a donation of the parcel containing the 
Moccasin Bend Mental Health Institute--one of two major incompatible 
uses at Moccasin Bend--until after the facility is no longer used to 
provide health care services. H.R. 980 excludes from the boundary of 
the national historic site the part of the Archeological District that 
is currently leased for a golf course--the other major incompatible 
use--and it prohibits the Secretary of the Interior from proposing that 
the golf course area be included in the boundary until it is no longer 
used as a public or municipal golf course.
    In addition, H.R. 980 provides authority for the Secretary to enter 
into cooperative agreements with other parties for the preservation, 
development, interpretation, and use of the historic site, and allows 
the Secretary to use a portion of the visitor center established for 
the historic site as an additional interpretive center for the Trail of 
Tears National Historic Trail.
    Mr. Chairman, efforts to include Moccasin Bend in the National Park 
System date back to 1950, when Congress, at the recommendation of 
Interior Secretary Oscar L. Chapman, enacted legislation that 
authorized by donation the addition of 1,400 acres of Moccasin Bend to 
the Chickamauga and Chattanooga National Military Park. At that time, 
Moccasin Bend was devoid of incompatible development. State, county, 
and city governments acquired property, but did not transfer any of the 
land to the National Park Service. Instead, much of the land was made 
available for other purposes.
    Since then, Moccasin Bend has been recognized for its nationally 
significant cultural resources in addition to its scenic values that 
were the basis for the 1950 legislation. Surrounded on three sides by 
the Tennessee River, Moccasin Bend possesses a special collection of 
continuous prehistoric and historic sites that chronicle important 
aspects of human history on the North American continent, including (1) 
transitional Paleo-Archaic and Archaic sites, (2) woodland period 
settlement sites and burial mounds, (3) fortified proto-historic 
villages, (4) Spanish exploration and settlement of the southeastern 
United States, (5) contact between native and nonnative peoples, (6) 
part of the Trail of Tears National Historic Trail, and (7) the 
location of Union earthworks, such as cannon emplacements, rifle pits, 
bivouac pads, and access roads, which were of strategic importance in 
breaking the Confederate siege of Chattanooga in the fall of 1863.
    The site was listed on the National Register of Historic Places in 
1984, and a 956-acre area was designated as the Moccasin Bend 
Archeological District National Historic Landmark in 1986.
    In 1998 and 1999, at the direction of Congress, the NPS prepared 
the Cooperative Management Plan/Environmental Assessment for Moccasin 
Bend in accordance with guidelines for special resource studies. This 
process followed other Moccasin Bend planning efforts in the 1990's, 
including a Chattanooga citizen involvement planning process called 
``Revision 2000,'' and a battlefield preservation plan for Civil War 
resources within the national historic landmark prepared by the Friends 
of Moccasin Bend National Park. The study was called a cooperative 
management plan to emphasize the close working relationships that had 
developed among local, regional, state, federal, and tribal governments 
as well as the extensive public participation involved in the effort. 
As is standard procedure for special resource studies, this study 
examined the national significance, suitability, and feasibility of 
adding this site to the National Park System.
    The determination of national significance had already been 
established through the designation of the Moccasin Bend Archeological 
District National Historic Landmark in 1986 because of its significance 
to American Indian and U.S. military history. According to the study, 
the area has the best intact concentration of archeological resources 
known to exist in the entire main 650-mile Tennessee River valley, and 
the quality, diversity, and broad accessibility of these resources 
cannot be matched in any other American metropolitan area. The study 
also found that the extant earthworks of the Battle of Chattanooga 
within the archeological district are the best preserved of all 
physical remnants of that battle and the only recognized unit of Union 
army gun emplacements, trenches, and support areas remaining extant 
from that costly campaign.
    The study also found that the Moccasin Bend Archeological District 
met the test of suitability for a unit of the National Park System, in 
that it represented a theme or resource that is not already adequately 
represented in the National Park System nor is comparably represented 
and protected for public enjoyment by another land-managing entity. 
Although American Indian archeological sites are represented in the 
National Park System, none of the designated units possess the 
extensive range of excavated archeological resources as well as 
unexcavated subsurface resources for which Moccasin Bend is 
significant. The length of continuous cultural occupation at Moccasin 
Bend--10,000 years--is not duplicated anywhere else within the National 
Park System.
    With respect to the test of feasibility, however, the study found 
that certain conditions needed to be met for the area to be considered 
feasible as a new unit of the National Park System. To be feasible for 
inclusion, an area's natural systems and/or historic settings must be 
of sufficient size and appropriate configuration to ensure long-term 
protection of the resources and to accommodate public use, and it must 
have potential for efficient administration at reasonable cost. The 
study found that unless the incompatible uses within the Moccasin Bend 
Archeological District were removed and the land was restored to 
resemble the way it looked at the time of the 1950 legislation, the 
area would not be feasible as a unit of the National Park System. Those 
uses need to be removed in order to provide visitors a quality 
experience in a landscape reminiscent of its past, comprehensively 
protect archeological resources and provide for additional research 
opportunities, and attract tourists to visit Moccasin Bend in large 
numbers.
    This does not mean that the restoration of the area would need to 
occur before the site could be established. The study offers a phasing 
plan that provides for an orderly and timely removal of uses and 
restoration of the cultural landscape, calling for the National Park 
Service to receive the land in four phases over ten years. This may be 
an ambitious plan because of the complex issues surrounding the mental 
health institute, the golf course, and funding for land acquisition and 
restoration of the cultural landscape. It may be more reasonable to 
complete land acquisition by 2015 or some other mutually agreed-upon 
timetable. These provisions are extremely important in ensuring the 
integrity of the site. So long as any of the 956 acres remain under the 
jurisdiction of entities that do not have resource preservation as a 
primary goal, there is always the risk that future management actions 
could damage or destroy subsurface cultural resources.
    For these reasons, we would not support establishing a national 
historic site at Moccasin Bend without substantial revisions to H.R. 
980. Most importantly, the Moccasin Bend Golf Course, which contains 
vital archeological resources and is a key part of the national 
historic landmark, should be included in the boundary, along with a 
reasonable date (preferably 2010) by which the golf course would be 
transferred to the Secretary of the Interior.
    Second, the legislation should require the State to donate to the 
Secretary of the Interior the Moccasin Bend Mental Health Institute no 
later than 2015, or some other mutually agreed-upon date. In both 
cases, we believe that by including deadlines in the legislation, the 
State and city would hasten efforts to seek alternative locations for 
these facilities.
    Third, the legislation should provide a timetable for the removal 
of other incompatible uses within the national historic site, including 
a model airplane flying facility and a law-enforcement firearms 
training range, along with the removal of any hazardous waste, and the 
restoration of the land base to resemble the area's 1950 appearance, at 
no cost to the Federal government.
    Fourth, the legislation should contain language that requires the 
National Park Service to consult with the culturally affiliated 
Federally recognized Tribes on any interpretation of the site.
    Mr. Chairman, Moccasin Bend is a very significant national resource 
that has the potential, if certain conditions are met, to be an 
important addition to the National Park System. If the time comes when 
the Department is no longer asking Congress to defer action on 
legislation designating new units of the National Park System, we would 
be pleased to work with the committee to develop legislation that 
establishes the Moccasin Bend National Historic Site in accordance with 
the provisions outlined above.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 

 Statement of Denis P. Galvin, Acting Director, National Park Service, 
             U.S. Department of the Interior, on H.R. 1668

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1668, which would authorize 
the Adams Memorial Foundation to establish a memorial in the District 
of Columbia and its environs to honor former President John Adams and 
his wife Abigail, former President John Quincy Adams and his wife 
Louisa, and their legacy of public service.
    The Department supports enactment of H.R. 1668. This position is 
consistent with the recommendation of the National Capital Memorial 
Commission, which endorsed the bill by a unanimous vote on April 26, 
2001.
    H.R. 1668 authorizes the establishment of the Adams memorial in 
accordance with the Commemorative Works Act of 1986. The Act 
established a process under which, following authorization of the 
subject matter by Congress, the Secretary of the Interior submits a 
plan for the site and design of the memorial for approval by the 
National Capital Planning Commission and the Commission of Fine Arts.
    The bill also provides that no Federal funds shall be used to pay 
any expense of the establishment of the commemorative work. The Adams 
Memorial Foundation would be responsible for not only the cost of 
construction of the memorial, but also for establishing a fund in the 
Treasury equal to ten percent of the cost of construction for 
catastrophic maintenance and preservation, as provided for in Section 
8(b) of the Commemorative Works Act.
    A memorial to President John Adams, President John Quincy Adams, 
and their wives and their legacy of public service in the Nation's 
Capital would be quite appropriate. As one of the findings in H.R. 1668 
states, ``Few families have contributed as profoundly to the United 
States as the family that gave the Nation its second president, John 
Adams, its sixth president, John Quincy Adams, first ladies Abigail 
Smith Adams and Louisa Catherine Johnson Adams and succeeding 
generations of statesmen, diplomats, advocates and authors.'' One of 
the three Library of Congress buildings is named after John Quincy 
Adams but, otherwise, there is no major public work in the Nation's 
Capital that recognizes or memorializes John Adams or John Quincy 
Adams. We agree with Congressman Roemer and the other sponsors of this 
bill that these father-and-son presidents and their legacy of public 
service deserve a memorial in Washington.
    As noted above, this legislation simply authorizes the process for 
developing an Adams memorial to move forward. The Adams Memorial 
Foundation has not yet proposed a design or site for the memorial, nor 
have there been any decisions made by the National Capital Memorial 
Commission, the Commission of Fine Arts, or the National Capital 
Planning Commission other than endorsement of H.R. 1668 by the National 
Capital Memorial Commission. However, because the three commissions 
have established policies against siting any more memorials in the 
``reserve,'' the area that represents the Mall east to west and the 
White House to the Jefferson Memorial north to south, the memorial 
would not be located there. Instead, the recommended site would likely 
be one of the 100 sites that have been identified in a master plan for 
memorials and museums in the District of Columbia and its environs by 
the three commissions as sites that are appropriate for new memorials.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 
    Mr. Hefley. Thank you very much, Mr. Galvin. Just a couple 
of questions for each of you. The incompatibility is a little 
bit hard for me to understand. Are you saying that you would 
give up--you are not going to get what you want here, the 
perfect, it appears at this time. I think Mr. Wamp has 
eloquently pointed out that the coalition that supports this 
would fly apart like crazy. So you are not going to get the 
perfect. Would you give up the good in order--because you are 
not getting the perfect? Would you rather not have it done at 
all?
    Mr. Galvin. First, let me just repeat that the 
administration recommends deferral of this bill on other 
grounds, and then let's get into the substance of it. Our study 
proposed a date certain for the termination of these uses. Mr. 
Wamp's bill proposes essentially open-ended continuation of 
these. Perhaps there is someplace in the middle or some 
language we can agree on that will better ensure that 
eventually--eventually--even the study does not recommend that 
these uses be terminated tomorrow--but that eventually this all 
becomes part of an important National Historic Site.
    Mr. Hefley. I visited Valley Forge last summer, and I 
noticed that in one area around Valley Forge, it was hard for 
me to tell sometimes whether I was on park property or on 
private property. So it is not like many parks do not have what 
you might call incompatible uses, but it works out very well 
and no one seems to object to that.
    Mr. Galvin. Well, in the case of Valley Forge, I am not 
sure I agree with you that it works out very well. We have had 
and we have right now proposals in Valley Forge to build major 
highways through the park. Private property within the park 
boundaries has frequently proposed development that is inimical 
to the historic scene there. We essentially inherited a State 
park there with much of the uses that you point out.
    Mr. Hefley. Mr. Culp, will Carson City be required to spend 
any money for this land if it is transferred?
    Mr. Culp. No, not under the terms of this legislation, Mr. 
Chairman.
    Mr. Hefley. And the BLM used this land for what prior to 
that?
    Mr. Culp. It was a wareyard for our local office, storage 
of vehicles and materials that we used in our programs to 
manage the public lands.
    Mr. Hefley. Are there any hazardous materials on the site?
    Mr. Culp. Not to my knowledge. There are some old buildings 
that would be, I believe, demolished.
    Mr. Hefley. Thank you. Any further questions, Committee?
    Mr. Souder?
    Mr. Souder. I had first a brief comment and than a follow-
up question. I want to say for the record again that I do not 
support the administration's position of a complete freeze to 
catch up with the backlog and I do not believe that is as 
sustainable position for this year. All of us, particularly 
those of us who are conservative Republicans, had a concern 
about major annexations of territories that were not supported 
at the local community level that seemed to be, at times, at 
whim; but it is another thing to say we are not going to add 
anything.
    There have been these historic battles for 100 years nearly 
in the Park Service about Congress--I know fellow Hoosier and 
former Parks Director, Mr. James Ridenour, believes that 
Congress pork barrels. Well, of course they do. That is how the 
Park Service got started. That is what Albright and Mather and 
all these people did, is they put together coalitions to try to 
get support for the Park Service, and if the Park Service does 
not incorporate things that communities and States and Members 
of Congress desire, then we are going to get a proliferation of 
heritage areas and the monies are going to go away from the 
Park Service and we will have inconsistent development like is 
occurring right now in the Forest Service and the BLM.
    We do not know who has wilderness. We do not know who has 
recreation. We do not know who has historical areas. Secondly, 
we have a different problem east of the Mississippi than we 
have west of the Mississippi, because we cannot do in Indiana 
the type of swaps with BLM like they are doing in Nevada, 
because we have 3 percent public land, including State, county 
and Federal. Therefore, almost all of our historic sites have 
things built over the top and built over the top; and trying to 
figure out how to do transition processes and how to do 
compatibility and yet have the east as our environmental and 
historical and cultural awareness increases, because 
historically we wanted to preserve the things in the West. That 
is why they have 70-to-90 percent public lands, but in the East 
we do not have many of these things.
    We are going to have this battle in Tennessee in almost 
every area, in almost every park question that comes up to do 
that. As you heard from my earlier questions, I have some 
concerns about how this works through, too, and would encourage 
the Park Service to continue to work with Congressman Wamp and 
others in Tennessee as to how to do a logical transition, what 
can and cannot be included in the properties, how you do a 
transition, how you preserve and make sure nobody tampers with 
the historically significant parts of the mental health site 
while it is still a mental health site.
    I am not totally convinced that it should be part of the 
Park Service thing, but obviously if there are historically 
significant things there, we do not want them damaged. But I 
would encourage you to look forward to that, and I wanted to 
make a statement for the record that I have. I understand that 
we still do not have a confirmed new parks director. The 
administration--I can understand why they are concerned about 
this session of Congress, but it is unlikely this Congress will 
completely hold back any more than any other Congress in 
American history has completely held back.
    Mr. Galvin. Without taking a position on that, Mr. Souder, 
your observation of history is certainly correct, and certainly 
the history of the National Park Service System is closely 
aligned with congressional action, since the property clause of 
the Constitution gives Congress the authority to create units 
of the National Park System I certainly recognize that, having 
been a frequent witness before this Committee over a number of 
administrations.
    The growth of the Park Service, I think, over time is 
organic. In recent Congresses, we have gotten sites that we 
would not have considered 20 or 30 years ago, sites that really 
add to the richness of the system, like Manzanar, Martin Luther 
King and others, that add to the important story of America as 
that story is made. So, ultimately, I believe the growth of the 
Park System has to be organic and it has to be at the direction 
of Congress.
    To answer your last question, I have committed to Mr. Wamp 
that I will work with him to try to remove this impasse on the 
incompatible uses.
    Mr. Souder. Thank you.
    Mr. Hefley. Mr. Wamp?
    Mr. Wamp. Thank you, Mr. Chairman. I have three questions 
for Mr. Galvin. First, does the language in H.R. 980 prohibit 
the Secretary from including the acreage on the golf course in 
the park by 2010?
    Mr. Galvin. I believe it says that the--well, I could look 
at it, but it is not within the boundaries; but it comes into 
the park when the golf course is ended. So it does not, no. If 
the golf course use ends, it comes into the park.
    Mr. Wamp. The golf course lease is up in 2005. If local 
government decides to not extend the lease of the golf course, 
the Secretary may add the golf course to this site. That is a 
decision that we left to local government because they own the 
land. This is their asset. To me, this is not an egregious, 
non-conforming use, and that is the point that I am making.
    Secondly, there have been no remains found under the golf 
course. On the excavation of the golf course 30 years ago, 
there were no remains. We asked this question during the public 
consensus-building process of the archeologist that did the 
study, and they said, ``Well, they were next-door,'' and I 
heard what you said about that. But there is a huge difference 
between finding remains under the golf course and finding them 
next-door; and frankly we are going to have an archeologist 
testify to why the property at the end of the bend must be 
included, based on Mr. Souder's question, because wherever 
there are remains, absolutely include them. But this is not one 
of the most significantly historical sites on the bend.
    It is important and I hope it can be added at some time, 
but not with a baseball bat, saying to local government, ``We 
are going to take this against your will, and do not forget 
what is next to it, and that is that big asset of the sewage 
treatment facility.''
    Second question: Your testimony says that the National Park 
Service believes that by including deadlines for closure in the 
legislation, the State and city would hasten efforts to seek 
alternative locations for these facilities. Now, that approach 
is like a squeeze play for the mentally ill; and I would just 
ask you, what is your solution to 1,900 patients that rely on 
this hospital for their mental health services, because your 
whole notion is if we do this, we will force them to move. 
Well, move where?
    Mr. Galvin. Well, we are proposing a unit of the National 
Park System here, and it is not usual for mental health 
hospitals to be in a unit of the National Park System. If there 
is strong support for a unit of the National Park System, 
perhaps cooperatively we can work out a solution to that. I 
recognize that is a problem.
    Mr. Wamp. Has your planning team or your organization been 
in negotiation with the State of Tennessee, which runs the 
mental health center, the city or the county governments which 
use the mental health center to take care of their prisoners 
and their population, about this approach of seeking an 
alternative?
    Mr. Galvin. Well, the study was done with public 
involvement and there were local planners on the study team.
    Mr. Wamp. I can answer your question. The answer is no, you 
have not been involved. You have not been involved in the 
consensus-building process. Your expert planners came in from 
out of town and made these recommendations and then they left. 
Basically, they have not been involved in building consensus, 
and that is the problem. We have to be involved in building 
consensus, and basically you are out in a vacuum, making 
recommendations without the understanding; and this brings me 
to my third and final point.
    I read the summary of the National Parks Legacy Project 
that the President rolled out in California 2 weeks ago. It 
says in it that the Park Service should be a partner with State 
and local governments on behalf of our parks in urban areas.
    Mr. Galvin, this is in the middle of the city of 
Chattanooga. This is a perfect urban setting. If there is any 
place that the Park Service should be willing to negotiate and 
compromise with local governments to see an urban park setting, 
it is this. It is a perfect case. If you have been to 
Chattanooga, you will see public space, public walks, river 
walks, people come and melt and mix, and it is wonderful. If we 
do not turn this property over to the Park Service and 
integrate this over time and let the local government have a 
voice in this process, it will not happen. That is what this 
consensus-building process did, and I am sorry that it is a 
fact that local government will not support the plan that your 
planning team recommended, but they have endorsed H.R. 980 as a 
compromise, and at some point you have got to compromise; and 
that is exactly what I came to appeal to the Subcommittee for 
today, and I appreciate your willingness. But if it is your way 
or the highway, I hope the Committee will take the highway.
    Mr. Galvin. Well, we serve at the pleasure of Congress. You 
pass the laws and we will do the best we can with them; but we 
would--this is an undeniably rich site that would make a fine 
unit of the National Park System, and we are interested in the 
long-term to some solution to these uses that do not have 
anything to do with the history of the site.
    Mr. Hefley. Any further questions? Hearing none, thank you 
very much, gentlemen. I am going to break up the next panel, if 
I could. I know there are some time constraints Dr. Ellis and 
David McCullough. I am going to ask Dr. Ellis and David 
McCullough to join us. We are going to get the rest of this 
panel following their testimony.
    Mr. Hefley. Thank you for being here today. It is a 
privilege to have both of you here. It is always a privilege to 
have people that are the very best at what they do testify 
before us. I am going to ask the TV cameraman to get his 
pictures and move as quickly as possible, because I can hardly 
see the witnesses.
    Dr. Ellis, we are going to start with you, I believe, and 
we will turn it over to you at this point.

 STATEMENT OF JOSEPH ELLIS, Ph.D., PROFESSOR AND AUTHOR, MOUNT 
          HOLYOKE COLLEGE, SOUTH HADLEY, MASSACHUSETTS

    Mr. Ellis. Mr. Chairman, I appreciate that. I had a 
statement, which I think you have copies of, and rather than 
read that statement, which contains information designed to 
inform anyone who knows very little about John Adams why, in my 
judgment, he is worthy of the memorial and why he is probably 
the most unappreciated great man in American history, and it 
suggests that if, in fact, instead of calling David McCullough 
and Joseph Ellis as expert witnesses, we might be able to call 
George Washington and Thomas Jefferson. They would, I think, be 
able to testify even more eloquently as to the fact that Adams 
was an essential person in their own lives and now they have 
got their own places in this National Capital, and the most 
sacred space imaginable, and Adams really deserves his, as 
well.
    It says all that, but what I thought I would do is be 
reasonably brief and turn it over to David, and then allow for 
conversation so that we can respond to the congressmen's 
questions, and what I want to do is--it is, in some sense, an 
attempt to answer why does Adams speak to us at this moment in 
time, as we enter the 21st century, why is this coming up now? 
Both David and I think it probably should have come up at least 
100--David thinks 200 years ago--why is it coming up now?
    What I have done is draft, in my own hand, if you will, the 
Declaration of Independence, if Adams written it; and, in fact, 
it was highly likely that Adams would have written it. He was 
chair of the Committee on which Jefferson served in May and 
June of 1776, and he delegated the drafting of the declaration 
to Mr. Jefferson. In his old age, Adams rued the day that he 
did that, because his own reputation did not grow as 
Jefferson's did, but all that.
    Here is Adams' Declaration of Independence, and I think it 
begins to highlight the differences between Adams and 
Jefferson, and begin to suggest why Adams is coming back: ``We 
hold these truths to be self-evident; that all men and women 
are created equal--Abigail would insist upon that--that they 
are endowed by their Creator with mutually dependent rights and 
responsibilities; that among these rights are life, liberty and 
the pursuit of virtue; and among these responsibilities are 
self-denial, duty to the Commonwealth, and a decent respect for 
the wisdom of the ages; that to secure these rights and enforce 
these responsibilities governments are instituted in all 
civilized societies, deriving their just powers from the 
consent of the governed and from the accumulated experience of 
proceeding generations.''
    ``Prudence indeed will dictate that governments long-
established should not be changed for light and transient 
causes and the lamp of experience will demonstrate that human 
passions aligned with dreams of perfection ought not seduce 
governments to embrace revolutionary change when imperfect 
evolution is possible, or listen to the tribunes of the people 
who ignore the abiding interests of the public. Accordingly, 
all experience has shown that mankind must resist the tyranny 
of despots and the tyranny of majorities; must balance their 
urge for freedom and their obligation to others; must contain 
their pursuit of personal happiness within the covenant of the 
collective; must, in sum, strive to subordinate the selfish 
impulses that animate our expectations to the better angels of 
our nature.''
    ``Let these principles be declared to a candid world at 
this propitious moment with a firm reliance on the protection 
of Divine Providence and the civic sense that our mutual pledge 
binds us together within the expansive limits of our lives, our 
fortunes and our sacred honor.''
    Mr. Chairman, that is my statement.
    [The prepared statement of Dr. Ellis follows:]

 Statement of Dr. Joseph J. Ellis, Professor and Author, Mount Holyoke 
                  College, South Hadley, Massachusetts

    If, by some miracle, this congressional committee were able to call 
George Washington and Thomas Jefferson as expert witnesses, instead of 
David McCullough and yours truly, they would almost surely express 
amazement that this hearing was occurring at all. From their 
perspective, John Adams was a leading member of the ``band of 
brothers'' that won American independence and then secured it with a 
national government. Like them, he was ``present at the creation.'' 
Like them, his public career stretched across the most critical years 
of the infant American republic. Like them, his revolutionary 
credentials were impeccable. Like them, he served as president.
    If there were a Mount Olympus in American history where the 
American gods gathered; everyone knew that Washington occupied the 
pinnacle, but Adams, along with Jefferson and Benjamin Franklin, were 
accorded a niche just below the summit. The leading members of the 
revolutionary generation would have presumed that a fitting monument to 
Adams had long ago been constructed on a prominent site in this capital 
city. These hearings, in effect, should have occurred about a century 
ago.
    Adams himself, on the other hand, if permitted to testify, would 
have said, ``I told you so.'' In 1790 he predicted that, ``Mausoleums, 
statues, monuments will never be erected to me,'' explaining that he 
lacked what he called ``the gift of taciturnity,'' a roundabout way of 
saying that he could not keep his mouth shut. In his conversation and 
voluminous correspondence, he always spoke his mind. In his diaries, he 
always spoke his heart. His extreme candor made him the most colorful 
member of the revolutionary generation, and therefore a favorite among 
professional historians. But it also made him difficult to mythologize 
as a demi-god, because he made a point of displaying his own human 
ambitions, vanities, and psychic edges for all to see.
    He was also a lifelong contrarian, meaning that he instinctively 
embraced unpopular causes whenever he thought that popular opinion was 
at odds with the long-term public interest. Defending the British 
troops after the Boston Massacre is the classic example in this mode. 
But refusing to declare war against France in 1799, the first 
implementation of Washington's isolationist advice in The Farewell 
Address, was another example. He was, in fact, proudest of this 
decision, which subsequent history proved correct, though it cost him 
the presidential election of 1800. I think this contrarian streak 
should actually have helped him win the election with posterity, but it 
has obviously worked against him. Jefferson tells us what we want to 
hear. Adams tells us what we need to know. Perhaps now, and only now, 
are we prepared to listen.
    If the case for Adams needs to be made, simply to place it on the 
congressional record, my version would go like this: he was the 
acknowledged ``atlas of independence'' in the Continental Congress, the 
statesman who insisted most firmly that reconciliation with Great 
Britain was impossible; he nominated Washington to head the Continental 
Army and chose Jefferson to draft the Declaration of Independence; his 
``Thoughts on Government'' provided the model for most of the first 
state constitutions; he almost singlehandedly wrote the Massachusetts 
Constitution, which, in its emphasis on separation of powers and an 
independent judiciary, greatly influenced the shape of the United 
States Constitution; along with Franklin, he led the negotiations that 
produced the Treaty of Paris in 1783; he was America's most effective 
diplomat in Europe during the 1780s, winning recognition of our 
sovereignty as a nation and a loan from Dutch bankers that consolidated 
our foreign debt; he was the first Vice-President and second President 
of the United States; his correspondence with Jefferson from 1812 to 
1826 became the literary capstone for the American Revolution and the 
greatest exchange of letters between statesmen in American history.
    Finally, along with Abigail, he founded a family dynasty that, in 
terms of public service and intellectual brilliance, is without peer in 
all of American history. In a sense, Adams never needed marble statues 
to memorialize his name, since John Quincy, Charles Francis and Henry 
Adams became living embodiments of his legacy.
    If this current initiative bears fruit, as I fervently hope it 
does, Adams would surely like to be accompanied by his beloved Abigail 
and John Quincy in their stroll towards immortality. They are all in 
fact already there, waiting for us to catch up. And while no American 
statesman was more politically incorrect than John Adams, even he was 
enough of a politician to recognize that a group design might appeal to 
congressional devotees of family values. If he could choose he 
location, it would be on the Tidal Basin, so that he and Jefferson 
could take turns casting shadows over each other's facades.
    Enough special pleading. It is high time, indeed long past time, 
for the nation to memorialize its most independent, most pungent, most 
politically profound founder. . Washington and Jefferson required his 
company during their lifetimes. They need him now in their repose. And 
so do we.
                                 ______
                                 
    Mr. Hefley. Thank you, Dr. Ellis.
    Mr. McCullough?

     STATEMENT OF DAVID McCULLOUGH, AUTHOR, WEST TISBURY, 
                         MASSACHUSETTS

    Mr. McCullough. Mr. Chairman and members of the Committee, 
I am delighted to be here, very pleased to be asked to appear 
before you. I come to you as one who, 6 years ago, knew 
relatively little about John Adams. I now feel, and I feel this 
as strongly as I possibly can and hope I can express it 
adequately, that John Adams was one of our best ever. He was 
brave. He was honest. His devotion to service, to the service 
of the country, to the public good, is beyond almost any other 
example.
    Except for George Washington, no other figure of the time 
played a greater part in the winning of independence and the 
establishment of what we call our balanced or republican form 
of government. He was a true patriot in every sense of the 
word, serving the country for more than 25 years as a Member of 
Congress, as a diplomat, as Vice President, and President of 
the United States. He was the only Founding Father who never 
owned a slave as a matter of principal. He was the author of 
the oldest written constitution still in use in the world, the 
constitution of the Commonwealth of Massachusetts, which was 
passed into the law in Massachusetts 10 years before our 
national Constitution and is, in effect, a model of the 
national Constitution.
    He was separated from his family for more than 10 years in 
the service of the country, traveling farther than any other 
American leader of the day by far, over terrible seas and 
mountains, again in the service of the Nation, and secured 
while he was in Europe during the war, vitally-needed financial 
help to make the war possible, from the Netherlands, an 
initiative that he took under his own responsibility against 
all the odds and, with extraordinary determination, succeeded 
in bringing about.
    He was the man who urged the French to commit their navy to 
our cause, and it was because the French navy was there when 
the armies of Rochambeau and Washington converged on Yorktown, 
that the Battle of Yorktown was decisively decided by our 
forces, and Cornwallis' famous surrender resulted.
    John Adams was one of the three who signed for us and 
negotiated for us, the new United States of America, the Treaty 
of Paris, that ended the Revolutionary War in 1783. He played a 
very vital part in what has been judged by many historians as 
perhaps the most advantageous treaty ever signed by the United 
States of America. It not only established us as an independent 
Nation, but it set the boundaries of the Nation at the 
Mississippi.
    He was the first American to stand before King George III 
as our first minister to Great Britain, a farmer's son, 
standing before the monarch of Great Britain, to represent the 
new independent Nation, surely one of the greatest moments, 
greatest scenes in American history. As Vice President, he was 
in the chair virtually every day, casting more deciding votes, 
tie votes, breaking more tie that any Vice President in our 
history. As little as he thought of the insignificant role in 
which he was cast, as he said privately, he was, again, as 
dutiful as anyone who ever served in that position.
    As President, he kept us out of a very unnecessary war with 
France, which he thought was his greatest service to his 
country. But his greatest service, if we may say so, and if we 
only remember him for this, was the part he played in 
Philadelphia in 1776. He was the decisive voice. If Jefferson 
was the pen, Adams was the voice. He drove the Declaration of 
Independence through the Congress, made it happen when it 
happened, and the key word there is when; for in the first week 
of July, 1776, the time of the declaration, the time when the 
Declaration of Independence was voted on, the British landed 
32,000 troops on Staten Island. That is more troops that the 
entire population of the largest city in the colonies at the 
time, which was Philadelphia, 30,000 people.
    When I saw those statistics, Mr. Chairman, when I realized 
here was the foe landing more troops--and not just troops, they 
were the best troops in the world, tough, well-experienced and 
ready to march, and they were only a day-and-a-half's march 
from Philadelphia, it suddenly struck home to me as never 
before that when they were pledging their lives, their 
fortunes, their sacred honor, those were not mere words.
    In our rotunda, sir, hangs the great painting of the 
signing of the Declaration of Independence by John Trumbull, 
seen by thousands of tourists, thousands of visitors from all 
over the world, millions of people, year after year. If you 
study the painting, at the exact center, the focal point, with 
all of the devices that an artist uses to train the eye to come 
to the focal point clearly in evidence, clearly at work, at the 
exact center is John Adams, because those who were there knew 
that he was the man who made it happen.
    As Jefferson said himself, John Adams was the colossus of 
independence. The idea that we have forgotten this man, that he 
has stood in the shadows all these years, does not reflect well 
on any of us. The time is long past due to give him his place 
in the American pantheon and in our American hearts. We owe him 
more than we can ever express. We owe all of that generation 
more than we can ever express. We can never, ever know enough 
about them, and we must carry that attitude to our children and 
grandchildren.
    We are raising in this country, alas, disgracefully, a 
generation of young Americans who, to a very large degree, are 
historically illiterate; and we must be able to come to this 
city and be reminded, not just of Washington and Lincoln and 
Jefferson, but of John Adams. If we can do this now, what 
better timing and what better timing especially if it could be 
done before the Fourth of July?
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McCullough follows:]

   Statement of David McCullough, Author, West Tisbury, Massachusetts

    The Chairman. Let it be said for the record that John Adams was the 
driving force who made the Declaration of Independence happen when it 
happened, in the fateful first days of July, 1776; that while Thomas 
Jefferson was the pen of independence, John Adams was the all important 
voice.
    His speech to the Second Continental Congress on July 1st, behind 
closed doors, was not only the greatest speech of his life, but one of 
the greatest in American history, in that it carried the day. In 
Jefferson's words, ``[His] power of thought and expression...moved us 
from our seats.'' To Jefferson, John Adams was unquestionably the 
``colossus of independence.''
    In the aftermath of the Declaration, in the midst of war, no 
patriot traveled farther in the service of the American cause, over 
winter seas and mountain ranges, and often at extreme risk of life.
    It was Adams, acting almost wholly alone and on his own initiative, 
who secured vitally needed support from the Netherlands to finance the 
Revolution--an accomplishment of almost superhuman determination and 
ingenuity, the benefits of which are almost beyond reckoning.
    And in 1783, it was again John Adams, with Benjamin Franklin and 
John Jay, who negotiated the Treaty of Paris that ended the Revolution, 
established a new independent United States of America, and fixed our 
western boundary at the Mississippi. In all, it was as advantageous to 
our country as any treaty in history.
    On June 1, 1785, two hundred and sixteen years ago this month, in 
one of the most memorable scenes in history, it was John Adams, a 
farmer's son, who stood before King George III as the first minister to 
the Court of St. James's representing the new American nation.
    It was John Adams who was later elected our first Vice President. 
As the second President he was the first to live in the White House, 
the first to address a joint session of Congress here at the Capitol, 
and to his everlasting credit, at great risk of his political fortunes, 
he managed to avoid war with France when that would have been both 
popular and advantageous to his own career. History has shown it to 
have been a true ``profile in courage.'' Adams himself would write to a 
friend, ``I desire no other inscription over my gravestone than: ``Here 
lies John Adams, who took upon himself the responsibility of peace with 
France in the year 1800.'' ``
    But there is more.
    It was John Adams who drafted the oldest written constitution still 
in use in the world today, the Constitution of the Commonwealth of 
Massachusetts enacted in 1779, fully ten years before our national 
Constitution. Moreover, the Constitution of the Commonwealth of 
Massachusetts contains a ringing clause unlike that of any ever 
included in such a document before and that speaks to us eloquently 
today. It declares it the ``duty'' of the government to educate 
everyone.
    It was John Adams, more than anyone, who championed the creation of 
an American navy. Indeed, if there was a father of the American Navy, 
it was Adams and his memory might well be honored for that alone.
    He was, furthermore, the only founding father who never owned a 
slave as a matter of principle.
    He was the first college graduate to become President, the first 
published author to become President, and he was besides, the husband 
of the extraordinary Abigail Adams, one of the most remarkable 
Americans of the time. And he was the first to father a President.
    Beyond all that, it was John Adams as much as anyone who spoke for 
and insisted upon the balance of a three-part system of government--
legislative, executive, and judicial--and he who stressed with a 
persistence equaled by nobody that there must be an independent 
judiciary.
    Let us remember that the American Revolution was made by individual 
men and women who, by our modern way of seeing things, were very few in 
number. The war they fought was the most important in our history, as 
it gave birth to our nation and our free way of life.
    But the revolution began well before the war. As John Adams 
observed famously, ``The revolution was in the minds and the hearts of 
the people.'' He himself, in 1765, ten years before blood flowed at 
Lexington and Concord, declared to his fellow Americans:
    Government is a plain, simple, intelligent thing, founded in nature 
and reason. Quite comprehensible by common sense...The true source of 
our suffering has been our timidity. We have been afraid to think...Let 
us dare to read, think, speak and write.
    There was no American nation then, no army at the start of the war, 
no sweeping popular support for rebellion, no promise of success. Had 
they taken a poll in the colonies, the Declaration of Independence and 
the war would have been scrapped as unpopular. Only about a third were 
for the revolution, another third were adamantly against it, while the 
rest, in the old human way, were waiting to see which side would 
prevail.
    No rebelling people had ever broken free from the grip of a 
colonial empire. Those we call patriots were also clearly traitors to 
the King. And so as we must never, never forget, when they pledged 
``their lives, their fortunes, their sacred honor,'' it was in no mere 
manner of speaking.
    We call them our Founding Fathers in tribute, but see them as 
distant and a bit unreal, like figures in a make-believe costume 
pageant. Or worse, we forget them. Yet real they were, as real as all 
that stirred their ``minds and hearts.''
    In one of her most poignant letters to her husband in far off 
Philadelphia, Abigail Adams wrote, ``I wonder if future generations 
will ever know what we have suffered in their behalf.''
    With the end of the war came the no less difficult and uncertain 
task of building a new nation. And in this, too, John Adams played a 
lead part. Indeed, it may be fairly said that with the exception of 
George Washington, no American played a greater part in winning 
independence and establishing a republican form of government than John 
Adams.
    Yet curiously, sadly, unfairly, we have neglected him.
    As a people, we claim to believe in giving credit where credit is 
due. But public acclaim and honor for John Adams is now more than two 
centuries past due. That such is the case is irrefutable and does not 
reflect well on all of us. But better late than never. It is time to do 
something about it.
    And wouldn't it be fitting to move the measure to the House Floor 
before the July 4th recess? Timing is everything after all and the 
timing would be perfect.
                                 ______
                                 
    Mr. Hefley. Thank you very much.
    Mr. McCullough, in your testimony you indicate that 6 years 
ago, you knew very little about him. Why did you choose him? I 
can understand why you chose Teddy Roosevelt. I can understand, 
because he is very prominent in the American mind--why you 
chose Harry Truman. But why did you choose Adams when you 
started out?
    Mr. McCullough. As you know, Mr. Chairman, John Adams and 
Thomas Jefferson incredibly, unbelievably, died on the same 
day, and not just any day, but their day of days, July 4, 1826, 
the 50th anniversary of the Declaration of Independence. The 
idea that these two extraordinary men, so different in so many 
ways, such opposites in many ways, had led the intertwining 
lives that they had, first as friends, then as political 
rivals, then political enemies who did not speak to each other 
for 10 or 11 years, and then as friends again, struck me as one 
of the most interesting stories in our past, and my initial 
thought was to do a dual biography, giving them, in effect, 
each equal time.
    But I soon found very early in my work and reading that 
John Adams was the man I wanted to write about, because of the 
vast collection of papers, diaries letters, and particularly 
those between John and Abigail Adams. The letters between John 
and Abigail Adams, for example, number more than 1,000. I felt 
as if I had walked into a cave full of treasure, and there it 
was, all waiting, I felt, for me to dig in and follow a life, 
the likes of which is almost without comparison, because it is 
so full of adventure, full of uncertainty.
    The hardest thing in writing history and teaching history, 
and maybe the most important thing, is to convey the essential 
truth that nothing ever had to happen the way it happened; that 
things could have gone off in almost any direction at any time 
for any number of different reasons. Those brave people, men 
and women, who set off on the course of independence and 
revolution, had no way of knowing how it was going to come out. 
Adams said we were about one-third Tories, one-third timid and 
one-third true blue.
    He was true blue if any of them ever was, and I felt 
privileged to keep company with him and to learn from him, and 
to find again what we all should really understand, that the 
ideas and ideals for which they were willing to risk their 
lives and fortunes, were at the heart of one of the great 
moments in world history. If we do not know that, if we do not 
honor that, then we are not just negligent in our duties, we 
are really failing those people.
    I think one of the most poignant moments in the letters of 
Abigail Adams is when she writes to her husband at a time of 
great suffering and travail for both of them, ``I wonder if 
future generations will ever know all that we have suffered in 
their behalf.''
    Mr. Hefley. Dr. Ellis, I might ask you the same question. 
Several years ago, you wrote The Passionate Sage, an 
outstanding work. Why did you choose Adams for that?
    Mr. Ellis. Similar reasons to David. As a historian, you 
are looking for colorful material that also has historical 
resonance and significance. The late 18th century is the moment 
when the United States creates the institutions that still 
abide, the basic institutions of this Republic in which we are 
participating now; and it was an act of improvisation in the 
late 18th-century. They did not know what they were doing, 
except on a day-by day-basis.
    So to be able to go back to that moment and to study the 
greatest generation, all apologies to Mr. Brokaw, and to 
recognize that it wasn't that there was something special in 
the water back then, it was not that God shed his grace on 
thee, it was that a set of historical circumstances created a 
true gallery of greats that probably is the greatest leadership 
in the history of United States, politically. Alfred Lord North 
Whitehead said that, as far as he could tell, there are only 
two moments in all of Western history when an emerging elite or 
an elite in an emerging nation behaved about as well as one 
could ever expect; one was Rome under Caesar Augustus, and the 
other was the United States under this group called the 
Founding Fathers. I am trying to get us to call them Founding 
Brothers.
    Then, within that group, Adams--as I started to read their 
papers, Adams became the most colorful, the most pungent, the 
most--well, the most truthful. If we are looking for ways in 
which we can have windows back into the past, can look back and 
really come to terms with the minds and the hearts of those 
people, let us know what they really thought, what they really 
felt, no one does that as effectively as John Adams, and the 
materials that the Adams papers contain affords the 
storyteller, as I think David can attest, kind of an 
incalculable advantage.
    Both of us are lucky enough to have books on the bestseller 
list, and it just so happens we have the best subject. So once 
you begin to encounter Adams and the Adams family, there is a 
kind of electromagnetic field that establishes itself and that 
I think you are forever living within. I started a crusade back 
in the early 1990's to suggest that there should be a memorial, 
and I think it is the arrival of David's book that has pushed 
us over the top; and I want to thank him for the major 
contribution he has made to that particular cause.
    Mr. Hefley. Have any one of you considered at all about 
writing a book about the great American leaders sitting around 
this dais?
    Mr. Ellis. I am open to that suggestion, Mr. Chairman.
    Mr. Hefley. Questions, Committee?
    Mr. Holt?
    Mr. Holt. : Thank you, Mr. Chairman. It is, I think, a good 
idea to remind ourselves why we spent taxpayer money or, in 
this case, foundations would spend money to honor deceased 
patriots. It is not to recognize historians or their work, but 
really to raise a standard to which the more meager talents of 
the day can repair. You have both, particularly in your recent 
works, I think have made a very good case that we can learn for 
today a great deal from the way Adams and some of his 
contemporaries approached the problems, recognizing--if we 
recognize that they had little idea of where the road was 
taking them.
    I find it particularly meaningful to remember the remark 
that Mr. McCullough, you have extracted from Adams' writings, 
that I guess this was a saying of the day, that we cannot 
guarantee success. We can do something better. We can deserve 
it. It is, I think, that idea which would serve us all well, 
and I certainly hope that this monument to Adams and the 
Adamses will proceed quickly and in a way that will allow us to 
draw lessons for the day from their work.
    Mr. McCullough. May I respond to that, Mr. Chairman?
    Mr. Hefley. Surely.
    Mr. McCullough. That very line is a particularly 
interesting point. We cannot guarantee success, but we can 
deserve it. When I first read that line, it just made me come 
up out of my chair. I thought, ``Isn't that amazing, that we 
live in a time when coming in first or winning is all that 
matters? He is saying something quite different,'' and then I 
found out that George Washington said the same thing in some of 
his letters, and then I found out that for neither of them was 
it original. It comes from a play, the play, ``Cato,'' by 
Joseph Addison; and the point of that, it seems to me, is that 
they all knew the line. It was part of the culture. That play, 
Washington saw it, I think, something like six or seven times.
    It was almost like saying to you, ``Well, I guess you'll 
have to follow the Yellow Brick Road.'' It was a line everybody 
knew; and I think what that shows is that we cannot understand 
those people unless we understand the culture in which they 
lived, and we ought to take a tip from that, that the culture 
we are making is what is going to shape our outlook, and a 
statue or a memorial may seem like a small thing, but a statue 
or a memorial can move the minds of a nation and of a society, 
and it can help in the right direction.
    Mr. Holt. Particularly, I might add, if the memorial will 
make part of modern-day culture this idea that we cannot 
guarantee success, we can do something better, we can deserve 
it; and make that a part of our culture even more than the 
Yellow Brick Road.
    Mr. McCullough. Yes.
    Mr. Ellis. Could I just briefly--very briefly say that I 
think the notion that this should go on the fast track--we have 
had recent discussions about another memorial on the mall that 
is somewhat controversial. This would permit us to come 
together in a way that brings the Congress into a truly 
bipartisan mode, because Adams is a person who stands astride 
both conservative and liberal political traditions; both 
political parties have legitimate claim on his legacy and could 
join together in, in effect, writing the wrong that is at least 
100 years old.
    Mr. Hefley. Further questions?
    Mr. Holt. If I may use the remaining few seconds, I believe 
the current witnesses were out of the room when earlier I 
commented that I think a particularly important reason to have 
such a memorial is to recognize not just John Adams' judicial 
wisdom and constitutional wisdom, but also to recognize his 
valor. We have so many monuments in this town that recognize 
military valor. I think the valor that he and some of the 
others at the time showed was every bit as great and every bit 
as important for us to recognize as the military valor that we 
have commemorated around this city.
    Mr. Hefley. Mr. Souder?
    Mr. Souder. Thank you, Mr. Chairman. First, one thing that 
was prompted earlier by a comment from Mr. Delahunt, as well, 
that one of the things we have worked out in the Andean region 
is, in Columbia and Peru, they struggle with the drug question 
and the rule of law, because it seems to me some of what we 
could do in our embassies is to, for example, at St. Petersburg 
and at Paris, is that we ought to work to try to get some of 
our famous people who were in other places and be able not just 
to have something at the embassy that is a statue of them, but 
to work this in; and if we evolve this as a way to extend and 
make our American roots in a more simple way than just we are 
exporting capitalism and the complexity behind it, I hope that 
you would continue to stay interested in that and a way to 
extend it internationally, as well.
    The second thing, I mean, you have exciting subjects and 
every one of the subjects you have done in your books are 
exciting subjects. The plain truth is I have plenty of other 
books on Adams and other subjects that you have that did not 
make the bestseller list. Both of you deserve tremendous credit 
for making your subjects interesting and engaging the general 
public, because too often the history is disconnected; and the 
question I have and the challenge is how we can make the 
memorials more interesting for our era.
    Often, while we want to highlight the valor and the 
outstanding characteristics and hold up a model, they, I do not 
think, have the same inspirational value. Part of your success 
in your books, whether it is the Mornings on Horseback, you 
said let us look at Roosevelt as a boy, and got people to think 
in an approach; and in the Founding Brothers, you engage the 
people with something that gets them thinking about the dual, 
and they get engaged in the dual; and with younger people 
today, that is an increasing challenge for history; and how can 
our memorials in some way pick up this Adams as just this 
bundle of contradictions, the fear that you mentioned that we 
lose. When we see a marble statue, you lose all that.
    Saving Private Ryan made World War II different for so many 
Americans because you could feel it, and what could we do as we 
evolve this? You have clearly figured that out, from other 
biographers and other historians, how to make your books more 
interesting by getting the personality. How do we do that in 
our memorials?
    Mr. Ellis. I will take a first crack at that idea and then 
give David a chance to think and offer probably a wiser answer. 
I think that text and a monument are different things, and 
therefore--I have a chance in my narrative to develop in ways 
that a sculptor does not. I do think that both from my 
citizen's point of view that the Vietnam Memorial and he Korean 
Memorial are extraordinarily powerful works created within the 
past 20 years or so, and so that their legacy is not totally 
barren.
    I think that there ought to be some thought to the 
question. In other words, the decision about the design for 
this memorial is something that ought to have your goals very 
much at the center; that it is still, I believe, undecided. 
David and I are not going to be determinative in that decision. 
If you were going to ask me, I would say--I mean, I have joked 
about this in the past. I said at the end of the Adams book 
that we need an Adams monument on the Tidal Basin in such a 
location that Jefferson and Adams can take turns casting 
shadows across each other's facades.
    I would love it on the Tidal Basin. I would love Adams--
Abigail--as reasonably young people in the 1770's, at the 
height of his power in the Continental Congress, with John 
Quincy Adams trailing as a young boy behind him. I think that 
gives you feminist values. It gives you family values and it 
gives you John Adams at the moment of his greatest power. But 
that is my opinion and in some sense the words around it will 
need to be used. There are words on the Jefferson Memorial, the 
Lincoln Memorial. The words will need to be chosen to reflect 
the power of Adams, and believe me there are plenty of words 
that we can find to put on such a memorial.
    David, have you thought of something better?
    Mr. McCullough. No. I would say to me as moving a place as 
there is in Washington is the Lincoln Memorial, when you see 
the words of the Second Inaugural Address. As Professor Ellis 
has said, the words that one might draw from John Adams and 
Abigail Adams are a surplus of riches. I think the answer to it 
is talent, to make sure that the project is taken up by people 
of extraordinarily talent. Don't settle for second-best. Don't 
let compromise become such that it is a stultifying experience 
for whoever is the person who has the opportunity to create 
something of this kind.
    This could be a testimony to our creativity, as well as to 
the courage and valor, which is an absolutely perfect word, of 
those brave people. This is a worthy, worthy project. There is 
no question whatsoever that it is long overdue and should be an 
exciting, creative enterprise undertaken by the most talented 
people possible.
    Mr. Hefley. Thank you very much. Let me ask--and you, Dr. 
Ellis, have already stated what you thought would be a dramatic 
depiction. You think it is better to do something that 
commemorates the Adams family, rather than John Adams, 
individually?
    Mr. Ellis. In the end, Adams deserves a monument or 
memorial of his own, and yet my own view is that in Adams' 
political career, his most important political confidant and 
ally was Abigail, that during his Presidency she was 
effectively his one-woman Cabinet. He did not listen to anybody 
else. So her inclusion does not, in some sense, detract. I 
would hesitate to make it a monument in which the entire Adams 
family is, in some sense, replicated, because it seems to 
diminish and dilute, if you will, Adams' singular contribution.
    But I am prepared to put John Quincy in there as a 
recognition that perhaps one of Adams' most important legacies 
is his family, which is arguably the greatest political and 
intellectual family in American political history. So I would 
not want to go beyond those three, and if somebody wanted to 
knock it down to one or two, I would go along with that. I 
would opposed expanding it to numbers greater than that.
    Mr. McCullough. I agree. It is impossible to understand 
John Adams without understanding Abigail and the part she 
played. It further is impossible to understand Adams' attitude 
toward women and the part women played in the Revolution. 
Thomas Payne famously said, ``These are the times that try 
men's souls.'' John Adams reminded Benjamin Rush, ``These were 
the times that tried women's souls, too.'' Years ago, Anne 
Morrow Lindbergh said to me that true love is not just gazing 
at each other, true love is also gazing out in the same 
direction together; and if ever a couple, ever a husband and 
wife ever exemplified that approach, it is John and Abigail 
Adams.
    We tend to think of the patriots of that day as men. You 
cannot understand her unless you realize that she was a 
profound patriot. ``I would not have you be an idle 
spectator,'' she says. ``We have too many high-sounding words 
and too few actions to correspond with them,'' what a line and 
what a line that could be underneath a statue.
    Mr. Hefley. Why do you suppose that when the planners 
around this town were planning the Washington, the Lincoln, and 
the Jefferson, that Adams was completely overlooked?
    Mr. Ellis. I tried to answer that on several occasions, and 
the answer I have come up with is never completely 
satisfactory. Adams himself predicted that would occur, and 
there is a famous line in a letter to Benjamin Rush, 
``Mausoleums, monuments and statues will never be erected to 
me. I wish them not,'' but he then goes on to say if they are 
going to have a memorial, he wants it to represent him as he 
really was, ``All but the last I loathe.''
    The quippy, clever answer is that Jefferson tells us what 
we want to hear and Adams tells us what we need to know, and 
most of the time we do not want to hear it; that Adams is short 
and stout, cantankerous; he does not stay on script; he refuses 
to listen to spinners; he is maddeningly idiosyncratic, and so 
he does not fit into mythical heroic terms. He himself said the 
reason is because he talked too much, that he did not have the 
gift of taciturnity; that Washington and Jefferson and Franklin 
had the gift of taciturnity, meaning they kept their mouth shut 
and everybody presumed that they understood everything that was 
going on in the room, which, of course, they seldom did.
    I think it partly has to do with the demise of the 
Federalist party in the early part of the 19th century, so that 
the party that would otherwise have brought him forward for 
commemoration was essentially out of existence; but it is 
mostly because he himself refused to be a person of party, and 
so the Hamiltonians will get their statue and the Jeffersonians 
will get their statue, but there is nobody to represent Adams 
because he does not fit neatly into any of the grooves. I think 
that one of the things that we are saying is it is precisely 
because he does not fit into the ideological political groups, 
that he is the ultimate symbol of American independence.
    But it still--it is a statement about us more than about 
him, that it has not happened; and, David, maybe you can follow 
file up.
    Mr. McCullough. I really have nothing more to add, except 
that we have never celebrated--for some reason, we do not 
celebrate one-term Presidents unless they have been 
assassinated in office. There is something about the fact that 
they lose, we do not want to honor them, and we do not honor 
Presidents for what they did not do, the fact that he did not 
take us into that war with France, and it would seem to me that 
we in this generation especially, especially, should understand 
the importance of that. He said, ``Great is the guilt of an 
unnecessary war.'' What a line. Like everything he said, it is 
exactly what he meant.
    Mr. Hefley. We are very mindful of your time constraints 
and we appreciate it. Are there any further comments?
    Mr. McCullough. Yes, I have one more. He had the best sense 
of humor of almost anybody who ever occupied a position of 
importance in our government. He was a warm, affectionate, 
great-hearted person, who would have been the best company 
imaginable, were we to have the chance to be with him.
    Mr. Hefley. Yes, Mr. McGovern?
    Mr. McGovern. I am mindful of your time, as well, but I did 
not want you to leave without saying thank you for giving us a 
history lesson today. Thank you for introducing this generation 
to John Adams and the Adams family, and thanks to both of you, 
and Mr. Roemer and Mr. Delahunt, for helping to create a sense 
of urgency, I think, here, for us to do something and to do it 
now; and hopefully, given the fact that everybody is in 
agreement here, that perhaps we can get this reported out of 
Committee and enacted on before July 4th, which I think would 
be a fitting tribute. But I wanted you to know how grateful we 
all are that you were here today. Thank you.
    Mr. Ellis. Thank you, sir.
    Mr. Hefley. Tim?
    Mr. Roemer. Thank you, Mr. Chairman. I, too, want to join 
in thanking both you in bringing this up, Mr. Chairman. You 
have been a pleasure to work with through this process, and I 
appreciate the bipartisan support that I have received in the 
spirit of John Adams, from this Committee. We have cosponsors 
from both sides of the aisle, and the staffs have been 
wonderful to work with on both sides; and I want to join in 
thanking our distinguished witnesses today, David McCullough 
and Dr. Ellis, for their time and patiently waiting, not only 
to testify, but waiting for this memorial as this country is, 
as well.
    I think that their testimony today and their suggestions 
about a monument, in addition to John, that it is very 
important that Abigail Adams be an integral part of this and 
that John Quincy Adams be an integral part of this; but that we 
are so much richer and wiser in this country when we have the 
kind of people writing for us that David and Joe provide. 
Number one on the list, number four on the list, oftentimes 
ahead of the mud wrestlers and the get-rich schemes that many 
people want to read about.
    If it is written the right way, and informed and educated 
verse, and compelling prose, tethered to research, the American 
people will read it; and I think even better than reading it is 
coming to this historic city and feeling it and seeing it and 
learning it, the virtues and the valor and the honor and the 
character of this family. These two have brought it alive and 
will bring it alive to hundreds of thousands of people in their 
books, and I am very, very grateful that they took the time to 
come here today.
    Mr. Hefley. Mr. Delahunt?
    Mr. Delahunt. Yes, Mr. Chairman; I want to specifically 
thank Professor Ellis for pointing out, for the benefit of my 
friend and colleague from Indiana, that both parties have a 
claim on John Adams. But, seriously, to both of you, I think it 
was David's comment that he learned from John Adams during 
these past 6 years. Well, again, to echo the sentiments of 
others, we are profoundly grateful and learn from both of you 
every day.
    Thank you.
    Mr. Hefley. I, too, would thank you for being here today, 
for writing the books that you did, for pushing the concept of 
the recognition of the Adams family that we should have. I 
would thank again--thank Tim Roemer for his champion of this 
cause--Mr. Delahunt. I have a theory about politicians and 
speeches, and that is it is a sin to bore a crowd. If you are 
asked to speak to a rotary club, if you go in there and bore 
them, it is a sin. Obviously, you all--the both of you--you 
all? You can tell I came from the South--obviously, with your 
writing, you must feel it is a sin to bore a reader; just 
because you are historians, you do not have to make it dull and 
dusty, and both of you are excellent storytellers and you tell 
a story and, in the process, we get an awful lot of history out 
of that, and we appreciate that very much.
    Do either one of you have any further comments?
    Mr. McCullough. No, sir.
    Mr. Ellis. No, sir.
    Mr. McCullough. Go forward.
    Mr. Hefley. If not, with great appreciation, we thank you 
for being here.
    Mr. McCullough. Thank you, sir.
    Mr. Hefley. The next panel will be made up of James Mills, 
Vice President of the Friends of Moccasin Bend National Park; 
Mr. Jack Baker, President, National Association of Trail of 
Tears, and Ms. Janice McIntosh, Director of the Carson City 
Senior Citizens Center.
    Mr. Mills, why don't we start with you?

    STATEMENT OF JAMES O. MILLS, VICE-PRESIDENT, FRIENDS OF 
      MOCCASIN BEND NATIONAL PARK, CHATTANOOGA, TENNESSEE

    Mr. Mills. I appreciate the opportunity to come before this 
Committee. My name is Jay Mills, Vice-President of the Friends 
of Moccasin Bend National Park, and I speak on their behalf. 
The Friends is a community group dedicated to preserve, 
protecting and interpreting one of the most outstanding and 
beautiful sites of American cultural history. There is a long 
history to this effort. Industrial development threatened 
Moccasin Bend as early as the 1880's. In 1950, Senators 
Kefauver and McKeller, representing a broad coalition of 
business and community leaders, initiated legislation that was 
approved by Congress and signed by President Truman, 
authorizing the addition of up to 1,400 acres on Moccasin Bend 
to the Chickamauga Chattanooga National Military Park. That 
effort was suspended by the failure of Governor Frank Clement 
to take necessary measure.
    Today's proposed legislation gives new life to the decades-
old effort. This cause is worthy because Moccasin Bend contains 
one of the most important and rich complexes of archeological 
and historical sites to be found inside any city in the United 
States, chronicling 10,500-plus years of human history. The 
themes included in this history are the peopling of the 
continent; the emergence of regionally-distinct cultures; the 
transition to permanent settlement; long-distance trade; the 
rise of politically-powerful, fortified population centers; 
contact with Spanish explorers and the consequences of 
epidemic; military and economic stabilization and collapse and 
cultural survival; frontier and Cherokee tenure, including the 
defiant Chief Dragging Canoe--his villages were along this 
section of the river--also the Cherokee removal along the Trail 
of Tears, to which Mr. Baker will speak in detail.
    Moccasin Bend also played a pivotal role in the Civil War. 
Union guns on Moccasin Point bombarded defense mounts on 
Lookout Mountain and allowed Hooker's and Sherman's armies to 
break the siege, join Grant in the city and route the 
Confederates, turning a Union defeat at Chickamauga into a 
victory at Chattanooga, giving President Lincoln the supply 
route he needed through the mountains to press the war to the 
Atlantic States.
    As noted in the Park Service's findings of their corporate 
management plan, nowhere within the Park System or in a State, 
local or private park is such a diverse array of themes 
significant to this Nation's history currently protected and 
interpreted. National Park status will provide comprehensive 
protection and interpretation of these precious nationally-
significant resources and ensure the professional development 
into highly valued and attractive assets.
    The Park Service is uniquely qualified to provide the 
strength of Federal law to protect these resources from plunder 
and other threats. It offers the greatest assurance that the 
resources will be protected into perpetuity, along with the 
highest level of professionalism and planning how the park will 
be interpreted, experienced and managed; and only with Federal 
management is there the assurance that the people whose 
histories are to be interpreted, that they will hereafter play 
a prominent role in determining how their own histories will be 
presented.
    The public benefits are enormous. Establishing the unit 
would preserve a 911-acre green space contiguous to downtown 
Chattanooga, while unlocking it for passive recreational, 
educational and its economic benefits. The park would connect 
Chattanooga's revitalized waterfront and downtown with the 
renowned river walk system and the interpreted center would 
serve as a gateway to the park. A 1996 study by Thomas J. 
Martin and Associates projects that Moccasin Bend National 
Historic Site and Interpretive Center would generate $29 
million annually in economic benefit within the State of 
Tennessee and $21 million annually within the county on an 
ongoing basis.
    Both Hamilton County and the city of Chattanooga have 
passed resolutions requesting elected officials to work toward 
Moccasin Bend being included in the National Park System. The 
Friends have secured endorsements from over 25 community 
organizations and have petitions from over 6,000 citizens. The 
Trust for Public Land and the Nature Conservancy have endorsed 
the project, and the editorial staff of both newspapers also 
have endorsed it and have given extensive coverage throughout 
the development.
    Early in the process, we opened communications with the 
Federally-recognized tribes whose heritage is at issue here, 
most notably, the Creek and Cherokee Nations. The evolution of 
the legislation before you today has been followed and shaped 
by their leaders and endorsed by the Cultural Preservation 
Committee of the Intertribal Council of the Five Civilized 
Tribes, and they are the Muskogee Creek, Cherokee, Chickasaw, 
Choctaw and Seminole Nations.
    Chattanooga has a rich history of success with public and 
private partnerships. The leading foundations in Chattanooga, 
as well as individuals, have already lent their support, and 
the Friends are poised to help extend those efforts, knowing 
that will take broad public-private support to develop a park 
and interpretive programming with the high level of appeal and 
impact that we envision.
    The Friends intends to continue to work to make this 
project a great success. A broad consensus has been forged, 
thanks to the leadership of Congressman Zach Wamp, in-holding 
issues have been resolved and the community awaits further 
progress. The Friends of Moccasin Bend stand ready and 
committed to sharing this area's rich past with those who will 
visit her for generations to come.
    Thank you so very much for your interest in Moccasin Bend 
National Historic Site.
    [The prepared statement of Mr. Mills follows:]

 Statement of James O. Mills, Vice President, The Friends of Moccasin 
                           Bend National Park

    I appreciate the opportunity to come before your committee. My name 
is Jay Mills, Vice President of The Friends of Moccasin Bend National 
Park and I speak on their behalf. The Friends is a community group 
dedicated to preserving, protecting and interpreting one of the most 
outstanding and beautiful sites of American cultural history.
    There is a long history to this effort. Industrial development 
threatened Moccasin Bend as early as the 1880s. Representing a broad 
coalition of business and community leaders, Senators Kefaufer and 
McKeller in 1950 initiated legislation that was approved by Congress 
and signed by President Harry Truman authorizing the addition of up to 
1,400 acres on Moccasin Bend to the Chickamauga and Chattanooga 
National Military Park.
    Although that effort was suspended by the failure of Governor Frank 
Clement to take final necessary measures, today's proposed legislation 
gives new life to a decades old effort. This cause is worthy because 
Moccasin Bend contains one of the most important and rich complexes of 
archaeological and historical sites to be found inside any city in the 
United States, chronicling 10,500 plus years of human history.
    The themes included in these resources are:
    <bullet> LThe peopling of the continent
    <bullet> LEmergence of regionally distinct cultures,
    <bullet> LTransition to permanent settlement,
    <bullet> LLong distance trade,
    <bullet> LRise of politically powerful fortified population 
centers,
    <bullet> LContact with Spanish explorers and the consequences of 
epidemic, military and economic destabilization, and collapse, and 
cultural survival
    <bullet> LFrontier and Cherokee tenure including the defiant 
Cherokee Chief, Dragging Canoe, whose villages were along this section 
of the river.
    <bullet> LThe Cherokee removal along the Trail of Tears, to which 
Mr. Baker will speak (has spoken) in detail,
    <bullet> LMoccasin Bend also played a pivotal role in the Civil 
War. Union artillery pieces on the Moccasin Point bombarded defense 
routes on Lookout Mountain and allowed the Hooker's and Sherman's Army 
to break the siege, join Grant and route the confederates, turning a 
union defeat at Chickamauga into a victory at Chattanooga, giving 
President Lincoln the supply route he needed through the mountains to 
press the war to the Atlantic States.
    As noted in the findings of the National Park Service Cooperative 
Management Plan, nowhere within the park service or in state, local or 
private parks is such a diverse array of themes significant to this 
nation's history currently protected and interpreted.
    National Park status will provide comprehensive protection and 
interpretation of these precious, nationally significant resources and 
assure their professional development into highly valued and attractive 
assets. The National Park Service is uniquely qualified to embrace the 
full range of these responsibilities. Citizen's groups have insisted on 
that level of protection and oversight.
    More specifically, the Park Service is uniquely qualified to 
provide the strength of federal law to protect the resources from 
plunder and other threats. It also offers the greatest assurance that 
the resources are protected into perpetuity, along with the highest 
level of professionalism in planning how the park will be interpreted, 
experienced and managed. And, only through federal management is there 
the assurance that the peoples whose histories are to be interpreted 
will hereafter play a prominent role in determining how their history 
will be interpreted.
    The public benefits are enormous.
    Establishing the Unit would preserve a 911-acre green-space 
contiguous to downtown Chattanooga while unlocking it for passive 
recreation, education and its economic benefits.
    The park would connect with Chattanooga's revitalized waterfront 
and downtown via the nationally renowned river-walk system, and the 
interpretive center will serve as a gateway to the park. The Friends 
strive for an interpretive center equaling the quality and attraction 
of the Tennessee Aquarium.
    A 1996 study by Thomas J. Martin and Associates, whose estimates 
for the Tennessee Aquarium proved conservative, projects that a 
Moccasin Bend National Historic Site and Interpretive Center will 
generate $29 million annually in economic benefits within the State of 
Tennessee and $21 million annually within the county on an ongoing 
basis.
    The Friends for the last six years has worked very hard to lead an 
all-inclusive community consensus in support of a National Park. Both 
Hamilton County and the City of Chattanooga have passed resolutions 
requesting elected officials to work toward including Moccasin Bend in 
the National Park Service. The Friends has secured: endorsements from 
over 25 community and petitions with over 6,000 citizen signatures. The 
editorial staffs of both newspapers have strongly endorsed the project 
and given extensive coverage throughout its development. The Trust for 
Public Land and the Nature Conservancy have strongly endorsed the 
project.
    Early in the process we opened communications with the federally 
recognized tribes whose heritage is at issue here, most notably the 
several Creek and Cherokee nations and tribes, and continue to develop 
a vibrant partnership with them. The evolution of the legislation 
before you today has been followed and shaped by their leaders and 
endorsed by the cultural preservation committee of the Inter-tribal 
Council of the Five Civilized Tribes (the Muscogee, Cherokee, 
Chickasaw, Choctaw and Great Seminole Nations).
    Chattanooga has a rich history of excellent success with public/
private partnerships. Already, the leading foundations in Chattanooga, 
as well as individuals, have lent their support to bring the project to 
this point, and the Friends are poised to help expand those efforts, 
knowing that it will take broad public-private support to develop a 
park and interpretive programming with the high level of appeal and 
impact that we envision.
    The Friends intends to continue a highly pro-active effort to make 
this project a great success. A broad consensus has been forged thanks 
to leadership of Congressman Zach Wamp. In-holding issues have been 
resolved and the community awaits further progress. The Friends 
welcomes any suggestions or comments in pursuit of what we believe will 
be a magnificent project.
    Thank you so very much for your interest in a Moccasin Bend 
National Historic Site.
                                 ______
                                 
    Mr. Hefley. Thank you.
    Mr. Baker?

  STATEMENT OF JACK BAKER, PRESIDENT, NATIONAL ASSOCIATION OF 
            TRAIL OF TEARS, OKLAHOMA CITY, OKLAHOMA

    Mr. Baker. Thank you, Mr. Chairman. My name is Jack Baker 
and I am a citizen of both the United States and of the 
Cherokee Nation, and I am president of the National Trail of 
Tears Association, and due to the Trail of Tears, I am also an 
eighth-generation Oklahoman. Congress designated the Trail of 
Tears National Historic Trail as such in 1987, and the trail 
commemorates the tragic removal of the Cherokee people. It 
encompasses two of the routes that were followed during the 
removal.
    One follows the principal land route and the other the 
water route, and while this trail is specific to the Cherokees, 
it represents the removal policy of the U.S. Government as it 
relates to several of the Southeasterntribes. The Trail of 
Tears Association was formed in 1993 as a support organization 
of the National Park Service. At the time of our forced 
removal, the Cherokees were on farms and even large plantations 
and lived pretty much the same as our white neighbors. A 
Constitution was adopted in 1827, patterned after that of the 
United States; as we heard earlier, to that we owe the efforts 
of John Adams. With Sequoyah's invention a few years before, 
virtually every Cherokee family was literate, and this compared 
with a 10-percent literacy rate in the surrounding States.
    With the publication beginning in 1828 of their newspaper, 
the Cherokee Phoenix, the Cherokees were well-informed of the 
issues of removal. By 1819 my people had ceded 90 percent of 
their original lands. They only had about eight million acres 
left of their original 80 million, and those remaining lands 
they sought to keep, while their white neighbors, being 
desirous of the Cherokee farms, sought to have them removed. 
The U.S. Supreme Court, in its 1832 decision in the case of 
Worcester versus Georgia, recognized the sovereignty of the 
Cherokee Nation, yet even this did not save them from a 
fraudulent treaty signed by a handful of Cherokees in 1835. 
These signers had no authority to speak for the Cherokee 
Nation, yet Congress ratified this treaty on May 23rd of 1836 
by a single vote.
    The Cherokees were given 2 years from that date to remove 
to the West. Our principle chief and the Tribal Council 
continued in their efforts to oppose removal, but to no avail. 
So, in late May of 1838, General Winfield Scott and his troops 
began to round up my people. The troops, with their rifles and 
bayonets, drove families from their homes. They were allowed to 
grab only a few items to take with them. Families were 
frequently separated, with mothers not knowing where their 
children were or husbands not knowing the whereabouts of their 
wives or children.
    In this manner, the entire Cherokee Nation became homeless 
and, for the most part, destitute within a matter of days. They 
were first taken to 31 stockades that were constructed 
throughout the Cherokee Nation, and the conditions in these 
stockades were deplorable. The people had no shelter, only a 
few blankets that some of the people had been able to grab, and 
inadequate food. These stockades were referred to as 
concentration camps, and this appears to be the first time that 
the term concentration camps was used.
    From these holding stockades, the Cherokees were taken to 
11 interment camps; 10 were in Tennessee and one in Alabama. 
Family tradition states that my fourth great-grandmother, Lizzy 
Ratley, had given birth to a baby girl right after the roundup, 
and while being driven to one of the interment camps, she 
became too weak to go any further. She refused to cross a 
creek, and she was stabbed by one of the soldiers with his 
bayonet and died soon after. One of the missionaries in his 
journal describes an identical story, but does not give the 
name of the woman, but it appears to be Lizzy Ratley.
    Then, in mid-June, three groups of about 800 Cherokees each 
were started west from Ross' Landing, which is present 
Chattanooga. Two went by water around Moccasin Bend and the 
other crossed on the upper part of Moccasin Bend, on the old 
Federal Road. Of that group, only 635 arrived in the West. 
There were 146 deaths and two births recorded along the way. 
There was a severe drought at the time, with extreme heat.
    Another of my ancestors, Katie North, along with her 
brother, nephew and father were in this group. Her father, 
William North, was a white man who had married a Cherokee women 
over 60 years before. He had been described only a couple of 
months before as being upwards of 100 years old and completely 
blind for the last 25 years. There is no record of his arriving 
in the West, so he is very likely one of the 146 casualties.
    Because of the high casualties of these first groups, 
permission was given to delay the removal of the other groups 
until fall when it would be cooler. Also, the Cherokee leaders 
petitioned General Scott that they be allowed to conduct their 
own removal. Permission was granted, and it has been estimated 
that as many as one-fourth of the 16,000 Cherokees died as a 
result of this forced removal. I might add that had John Quincy 
Adams been elected to another term to serve in 1829, rather 
than Andrew Jackson, there probably would not have been a Trail 
of Tears.
    It is important that the American public remember the Trail 
of Tears because it is an example of what can happen when 
prejudice combines with greed. A couple of years ago, the 
pictures of the people in Bosnia that were on TV, fleeing their 
homes with only what they could carry reminded me of the Trail 
of Tears, and the fact that it can and does still happen today. 
Let us hope that such ethnic cleansing does not exist today or 
the future of America.
    It is also important that the American public recognize 
that the history of America does not begin with Jamestown or 
with the arrival of the Mayflower. As my distant kinsman and 
fellow Cherokee, Will Rogers, once said, ``My family never came 
over on the Mayflower, but they were here to meet the boat.''
    The American public should be reminded that there were 
indigenous people here with rights to their lands. While these 
rights were not always recognized by our Founding Fathers, the 
acts of wresting the land from the Native Americans have not 
always been honorable. It is also important to our people that 
the Cherokee remember the Trail of Tears. They need to be 
reminded that although we faced a great adversity in the forced 
removal, we did survive. We were able to adapt to our new lands 
and prosper in them. Survival and adaptability are major 
attributes of our heritage and our young people need to be 
reminded of this.
    Moccasin Bend is a unique location on the Trail of Tears. 
Two removal detachments crossed by land at the upper portion of 
Moccasin Bend, and also crossed the Tennessee River at Brown's 
Ferry, which is a location along Moccasin Bend. Three other 
detachments went around Moccasin Bend by water. So these land 
and water routes completely encircled the land that is being 
proposed for the proposed park. I know of only one other 
National Park through which the Trail of Tears crosses, and 
that is the Pea Ridge National Battlefield Park in northwest 
Arkansas, and that park concentrates on the Civil War battle 
site, and there are no interpretive exhibits on the Trail of 
Tears.
    It is neither near a major population area, nor is it on a 
major highway. So Moccasin Bend would be an ideal location with 
an interpretive center on the Trail of Tears. It is adjacent to 
a large city, as well as being at the crossroad of two major 
interstate highways. This location would have the capability of 
pulling in large numbers of visitors. I personally support the 
creation of a National Park at Moccasin Bend . I also speak for 
the National Trail of Tears Association, which supports the 
park. I have a resolution from the association's executive 
Committee stating this.
    In addition, the Cherokee Nation supports the creation of 
this park. The Tribal Council voted unanimously to support it, 
and I have a resolution from them to present to you, signed by 
the officers of the Nation, including the principal chief and 
deputy chief, and with your permission, I would like to ask 
that they be entered into the record.
    Mr. Hefley. Without objection. I am going to have to ask 
you to kind of wind up your testimony. Your entire testimony 
will be placed in the record.
    Mr. Baker. Actually, that is the conclusion of my 
testimony. Thank you.
    [The prepared statement of Mr. Baker follows:]

   Statement of Jack D. Baker, President, Trail of Tears Association

    My name is Jack D. Baker and I am a citizen of both the United 
States and the Cherokee Nation. I am president of the National Trail of 
Tears Association.
    Congress designated the Trail of Tears National Historic Trail as 
such in 1987. This trail commemorates the tragic removal of the 
Cherokee people and encompasses two of the routes followed during the 
removal -- one follows the principal land route and the other the water 
route. While this trail is specific to the Cherokee it represents the 
removal policy of the U. S. Government as it relates to several 
Southeastern tribes. The Trail of Tears Association was formed in 1993 
as a support organization to the National Park Service to further 
research both the events leading up to removal and the removal routes, 
to identify significant sites along the trail, and to help preserve and 
protect these sites.
    At the time of our forced removal, the Cherokee owned farms and 
even large plantations much the same as their white neighbors. A 
constitution was adopted in 1827 patterned after that of the United 
States. With Sequoyah's invention of his syllabary a few years before 
virtually every family had at least one literate member. (This compared 
with a 10% literacy rate in the states surrounding the Cherokee 
Nation.) With the publication beginning in 1828 of their newspaper, the 
Cherokee Phoenix, the Cherokees became well informed on the issues of 
removal. By 1819 my people had ceded 90% of their original lands. They 
only had about 8 million acres left of their original 80 million. These 
remaining lands they sought to keep while their white neighbors being 
desirous of the Cherokee's farms sought to have them removed. The U. S. 
Supreme Court in its 1832 decision in the case of Worcester v Georgia 
recognized the sovereignty of the Cherokee Nation. Yet even this did 
not save them from a fraudulent treaty signed by a handful of Cherokees 
in 1835. The signers had no authority to speak for the Cherokee Nation. 
Yet Congress ratified this Treaty on May 23, 1836 by only a single 
vote. The Cherokees were given two years from that date to remove to 
the West.
    Our Principal Chief and Tribal Council continued in their efforts 
to oppose removal but to no avail. In late May of 1838 General Winfield 
Scott and his troops began to round up my people. The troops with their 
rifles and bayonets drove families from their homes. They were only 
allowed to grab a few items to take with them. Families were frequently 
separated with mothers not knowing where their children were or 
husbands not knowing the whereabouts of their wives or children. In 
this manner the entire Cherokee Nation became homeless and frequently 
destitute in a matter of days. They were first taken to 31 stockades 
constructed throughout the Cherokee Nation. The conditions in these 
stockades were deplorable. The people had no shelter, only a few 
blankets that some of the people were able to grab as they were being 
forced from their homes, and inadequate food. These stockades were 
referred to as concentration camps and this seems to be the first time 
that this term was used.
    From these holding stockades the Cherokee were taken to 11 
internment camps. Ten of these were in Tennessee and the remaining one 
was in Alabama. Family tradition states that one of my fourth great-
grandmothers, Lizzie Ratley, gave birth to a baby girl right after the 
round up. While being driven to one of the internment camps she became 
too weak to go any further and refused to cross a creek. She was 
stabbed by one of the soldiers and died soon after. One of the 
missionaries at the time recorded in his journal an almost identical 
story but does not name the woman.
    In mid June three groups of about 800 each were started west from 
Ross's Landing at present Chattanooga, Tennessee. Two went by water 
around Moccasin Bend and the other crossed the upper part of Moccasin 
Bend on the old Federal Road. Of that group only 635 arrived in the 
West with 146 deaths and 2 births being recorded. There was a severe 
drought at the time with extreme heat. My ancestor, Katie North, along 
with her brother, nephew, and father were in this group. Her father, 
William North, was a white man who had married a Cherokee woman about 
sixty year before. A couple of months before he had been described as 
being ``upwards of a hundred years old and completely blind for the 
last twenty-five years''. There is no record of his arriving in the 
West so he was very likely one of the 146 casualties.
    Because of the high casualties of these first groups, permission 
was given to delay the removal of the other groups until fall when it 
would be cooler. Also, the Cherokee leaders petitioned General Scott 
that they be allowed to conduct their own removal. Permission was 
granted. It has been estimated that as many as one-fourth of the 16,000 
Cherokees died as a result of the forced removal.
    It is important that the American public remember the Trail of 
Tears. It is an example of what can happen when prejudice combines with 
greed. The pictures of the people in Bosnia fleeing their homes with 
only what they could carry reminded me of the Trail of Tears. It is 
hoped that such ethnic cleansing does not exist today or in the future 
of America.
    It is also important that the American public recognize that the 
history of America does not begin with Jamestown or with the arrival of 
the Mayflower. They should be reminded that there were indigenous 
people here with rights to their lands. While these rights were always 
recognized by our founding fathers, the acts of wresting the land from 
the Native Americans have not always been honorable.
    It is also important that my people, the Cherokee, remember the 
Trail of Tears. They need to be reminded that although we faced a great 
adversity in the forced removal we did survive. We were able to adapt 
to our new lands and prosper in them. Survival and adaptability are 
major attributes of our heritage and our young people need to be 
reminded of this.
    Moccasin Bend is a unique location on the Trail of Tears. Two 
removal detachments crossed by land at the upper portion of Moccasin 
Bend and crossed the Tennessee River at Brown's Ferry. Three other 
detachments went around Moccasin Bend by water. These land and water 
routes of the Trail of Tears completely encircle the proposed park 
area. I know of only one other National Park through which the Trail of 
Tears passes and that is Pea Ridge National Battlefield Park in 
Arkansas. That park concentrates on the Civil War battle site and has 
no interpretive exhibits on the Trail of Tears. It is neither near a 
major population area nor on a major highway.
    Moccasin Bend would be an ideal location for an interpretive center 
on the Trail of Tears. It is adjacent to a large city as well as being 
near a crossroad of two major interstate highways. This location would 
have the capability of pulling in large numbers of visitors.
    I personally support the creation of a National Park at Moccasin 
Bend. I also speak for the National Trail of Tears Association, which 
supports the park. I have a resolution from the Association's executive 
committee stating this.
    In addition, the Cherokee Nation supports the creation of this 
park. The Tribal Council voted unanimously to support H. R. 980. I have 
a resolution from them to present to you signed by the officers of the 
Nation including the Principal Chief and Deputy Principal Chief.
    Thank you for allowing me to speak before you today. I certainly 
appreciate your time and your consideration of establishing this park.
                                 ______
                                 
    Mr. Hefley. Boy, you meet a request beautifully. I 
appreciate that.
    Mrs. McIntosh, you get the prize today on this panel for 
coming the furthest to testify. So we will turn the time over 
to you.

  STATEMENT OF JANICE McINTOSH, DIRECTOR, CARSON CITY SENIOR 
              CITIZENS CENTER, CARSON CITY, NEVADA

    Ms. McIntosh. Thank you. I also hope we kept the best for 
last maybe, too. A lot has been said today about the situation 
here at the senior citizens center, and previously we had 
beautiful pictures painted of American history; and Carson City 
is the capital of Nevada; and the picture needs to be painted a 
little bit further for you.
    I could read my testimony, and there are very many 
important things in here that were not said before. One being 
that this has taken a very long time to come to fruition. Once 
the BLM had decided to move from the yard that is east of the 
senior citizens center, it was at that time that the people 
that were associated with the senior citizens center started 
the ball rolling to acquire the land. The BLM was very 
supportive of it, and what had happened in this situation was 
that this piece of land no longer was on the outskirts of the 
city. It was in the middle of a housing development. Across the 
street from a senior citizens center is also a cemetery, and 
some people think that in and of itself is a little bit 
strange; but actually it is quite beautiful.
    It is very, very essential that we acquire this land, 
because we have an opportunity to make this what so many people 
dream of, and that is having a one-stop shopping area for 
services to serve the senior citizens of our community. We are 
sort of at the crossroads here, also. It is not just the 
citizens of Carson City that enjoy this. There are surrounding 
areas. People come as far as Reno, Lake Tahoe, Garnerville, 
Dayton, Virginia City; people come from all over to the senior 
citizens center, and while it was thought when it was built 10 
years ago, the present building that we are in, it was thought 
it would be forever, it has grown so tremendously that we 
literately have no more space.
    We are putting a second floor on our building and we are 
increasing the sizes of our dining rooms. Our building will 
attain 39,000 square feet. It is also a big part of the 
community. It is kind of a community center and it is also very 
important for that. So it gets a lot of double usage, triple 
usage, quadruple usage. It is a wonderful place to be. People 
go in there and they cannot believe the vim, the vigor; and we 
have people from all walks of life, of course, that come to the 
center.
    After BLM left, we tried to get this passed under the RPNP 
Act, and it did not qualify because it had also been master-
planned to have this assisted living center, which required us 
to take the approach we are here today with. In the last 
legislature session, our then-Senator Bryan from Nevada 
introduced it, and we were told, due to partisan politics, it 
did not pass, as many things did not pass. They did not even 
come to a vote. It is very essential now for this to move 
forward, along with this building that we are doing.
    Directly east of us, between the BLM land and our building, 
is a cemetery office. It is being relocated. But most 
immediately, we need it as a--the BLM land, which is east of 
the cemetery office--we need that particular land to use as a 
staging area for our building. It would make things easier. It 
would make things safer, also, for the situation. So we really 
hope that this will move forward and get out of Committee and 
go forward, so that it can be voted on, because it would help 
us most immediately and then downstream.
    There was another piece to this property that did get 
passed under the RPNP, and the Carson-Tahoe Rehabilitation 
Hospital is right next to us. We are trying to do, like I said, 
what a lot of other people have not been able to, and that is 
to create an area that services seniors in its entirety. It is 
an opportunity that most other places do not have, and we feel 
very fortunate this is available to us.
    We are actively moving forward on the building. It will 
start in September. It will start slowly and take approximately 
18 months to complete. So we feel that now is really an 
essential time for us to make sure that this keeps moving 
forward, because it will not only serve the citizens of Carson 
City, but will serve all the surrounding areas, also.
    Thank you very much for affording me this opportunity.
    [The prepared statement of Ms. McIntosh follows:]

   Statement of Janice McIntosh, Director of the Carson City Senior 
                  Citizens Center, Carson City, Nevada

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today to testify on H.R. 271, the 
conveyance of a former Bureau of Land Management (BLM) administrative 
site to the city of Carson City, Nevada, for use by the senior center. 
The BLM site has been vacant since 1997 when the BLM moved their 
headquarters to another location in the area. The city of Carson City 
desires to acquire the parcel for an assisted living and adult day care 
center. The existing Senior Center is adjacent to the subject property 
as is a Rehabilitative Center.
    Carson City is the present owner of the Senior Center. The Center 
is under the management and control of Carson City Senior Citizen's 
Center, Inc., a non-profit Nevada corporation that has been in 
existence since 1973. The 4.48 acres the subcommittee is considering 
today would allow for the dedication of a centralized area for senior 
services in the Carson City area. At one time the aforementioned 
property was in the outlying area of Carson City. Today, however, it is 
located in the middle of a housing development and would best serve the 
citizens of this city/county by being designated as an area to serve 
seniors. The majority of the property is overgrown with sage brush and 
old Quonset but buildings that have been deemed to have no value.
    The Senior Center started working on the transfer of the BLM land 
in 1997. Initially an application was made under the Recreation and 
Public Purposes (R&PP) Act for 1.93 acres to be used as a 
rehabilitation center, physical therapy center, and other medical uses. 
That parcel was transferred to the city and now is the Carson 
Rehabilitation Center. In 1998 the Senior Center tried to secure the 
remainder of the vacated BLM land once again under the Recreation and 
Public Purposes (R&PP) Act. However, since a portion of the land was 
master planned for a residential and ``domicile'' facility associated 
with extended care it did not qualify under the R&PP. In the year 2000 
U. S. Senator Bryan representing Nevada, introduced a bill from which 
H.R. 271 was crafted. While not a controversial bill, like many other 
bills at the end of the legislative session, it was not acted upon. 
Accordingly, today I am here to help this bill get out of committee and 
passed successfully in the Senate, House and then signed by the 
President.
    According to the Nevada State Demographer's Office June 9, 2000 
report, Carson City will have a forecasted population of 56,665 in 
2002. Carson City officials estimate that over 30% of thecity 
population will be over age 60. The city continues to receive favorable 
national publicity as an attractive retirement community. The influx of 
seniors to this area has made our present 1990 building inadequate to 
service the needs of seniors in this area. As a result, in September 
2001, we are embarking on a major remodel of the Senior Center. The new 
building will be two story and almost 39,000 square feet. It will serve 
as the cornerstone for the remainder of the master planned senior 
service area.
    The transfer of this property is one of immediate importance due to 
the fact that our impending remodel will require a building staging 
area. To accomplish this, the Quonset huts need to be demolished so the 
area could initially be used for large trucks to drop off and store 
building materials. Until our remodel is complete we would also like to 
use the area as a temporary parking area for patrons of the Senior 
Center.
    The forethought and master planning of this area will benefit the 
entire community in Carson City and become a model throughout our 
nation. Due to our constantly increasing senior population we feel 
compelled to continue our work on this senior service area. Our 
services and program participation have exceeded expectations and 
available space. Therefore, we are requesting the transfer of this 
property to Carson City so we may embark on this great project.
    Mr. Chairman, once again, I appreciate this opportunity that has 
been given to me to appear before the Subcommittee to discuss this 
bill. I will be glad to answer any questions.
                                 ______
                                 

    [An attachment to Ms. McIntosh's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3044.001
    
    [GRAPHIC] [TIFF OMITTED] T3044.002
    
    Mr. Hefley. Thank you very much; and let me ask you, since 
we are talking about the senior center at this point, you 
stated in your written testimony that in order to proceed with 
a remodeling, the quonset huts would have to be demolished.
    Ms. McIntosh. Yes.
    Mr. Hefley. Would you all do that or who would do that?
    Ms. McIntosh. The agreement is the city is responsible for 
that. They will be disassembled. They are all bolted together. 
Some of them are open quonset huts. Some of them are closed. 
This entire area is a bit of a blight. It has overgrown 
sagebrush and the buildings are in severe disrepair. There are 
nails that stick up on ramps and things like that. I mean, it 
is not a very safe area, either; but the city does have people 
that will take the building down for them--
    Mr. Hefley. So you will not be paying for that.
    Ms. McIntosh. No, we will not.
    Mr. Hefley. Mr. Baker, let me ask you, how inclusive was 
the process for determining that this ought to be a unit of the 
Park System? Did you feel fully included in the process?
    Mr. Baker. Yes, I did, and I also attended a couple of the 
meetings that the Intertribal Council Cultural Committee was 
involved in, and they also were in agreement with this.
    Mr. Hefley. Are you offended that the golf course and the 
mental health center will be there? Does that detract from what 
we are trying to do?
    Mr. Baker. Of course, the ideal situation would be that 
they were not there, but I have no problems with them being 
there at the present; and as far as the golf course, it 
actually protects the gravesites, if there are any there right 
now.
    Mr. Hefley. That occurred to me as the other testimony was 
being given by the Park Service, that certainly there is no 
desecration of those gravesites on the ninth fairway. The 
20,000 golfers or whatever it is, would not allow for that, 
Zach.
    Mr. Baker. I agree.
    Mr. Hefley. And it is beautiful green open space, too. Any 
further questions for these witnesses?
    Mr. Souder?
    Mr. Souder. I have a quick question, and I wanted to 
reiterate something the Chairman just said. Sometimes it gets 
frustrating when you do not see lots of members here and you 
have come a long way. The key thing is the Chairman is here; 
the Committee is here. This is a process. Take it as a good 
sign. When there is controversy, this place is jammed. It maybe 
meant that you were going to get blocked.
    I wanted to ask Mr. Mills just briefly, on the archeology, 
could you give me a little bit more feeling of what type of 
things you found there; and I notice in your testimony you 
mentioned about one Indian village. Was that, indeed, on 
Moccasin Point?
    Mr. Mills. Yes, it is. Imagine Moccasin Bend--the reason it 
is named that is it is in the shape of a foot, and the heel is 
the most important site. Behind you is a beautiful mural, and 
you see those trees growing along the river bank. That is a 
natural levee where, when it floods the banks, it slows the 
water down, silt drops out, and you get the formation of these 
high places right by the river. The same goes for all around 
this foot, but especially at the heel, where you have a broad 
levee.
    It was an ideal place for having, not just a camp or not 
just a permanent household or two or three, where you have a 
very small village like you did in the earlier times, the 
archaic period, by the Mississippian time period, that became a 
major population and political center that ranged--you would 
have four of them spanning the distance of Tennessee, from 
north to south. The next one up would be on the Highwasi and 
the next one south would be in the Calhoun, Georgia area, 
halfway to Atlanta.
    When the Spanish came through--a lot of Spanish materials 
were found there, and it would appear that Juan Pardot, when he 
spent his winter at the one down in Calhoun, Georgia, that he 
came up to the Chattanooga area and this site at Moccasin Bend 
may well have been the site they visited, because of all the 
Spanish goods that are found there, silver and copper plates, 
as well as Spanish beads, and quite a lot of them. The site is 
also important that things are so well-preserved there that the 
house appear to have burned.
    So you have dozens and dozens of structures that burned, 
and when they collapsed, they sealed the floors. So you 
actually have a living floor. It was not something that laid 
open like a ghost town and everybody is able to pick things up 
and walk off with them. It was sealed, collapsed.
    Mr. Souder. Is this a continuing archeological sites then, 
or is it viewed as mostly--
    Mr. Mills. It has not been excavated in since 1980, 1982, 
somewhere in there. When research determined that indeed there 
are intact sealed structures throughout the place, that was 
also when we were able to stop the looting that was going on. 
There is a Native American Reserve Force which are county 
deputies, actually, and they have done very effective job of 
policing it for the time being; and we need protection to carry 
that forward. A lot of these sites were been plundered, and 
fortunately a lot of the collections have been amassed 
privately or publicly in other places, and that those could be 
brought back home to Chattanooga, interpreted and with the help 
of Native Americans, the Creek and the Cherokee, whose heritage 
is there, determine the appropriate repatriation measures and 
interpretation that would fit those.
    Mr. Souder. Mr. Chairman, one of the great ironies here is 
it sounds like they have some of the things that would actually 
constitute the national monument purpose, which were sites that 
were potentially going to be destroyed; and instead we are 
doing monuments of whole huge areas in the West. I thank the 
Chairman and the witnesses.
    Mr. Hefley. Mr. Wamp?
    Mr. Wamp. Mr. Chairman, I just have a couple of questions 
for Mr. Mills, representing the Friends of Moccasin Bend, which 
is a broad stakeholder group of interested parties. Many of 
them have been in this for decades now because they really care 
about the historical significance and the preservation, and 
that is correct; right?
    Mr. Mills. That is right.
    Mr. Wamp. The Friends is a very broad group, and it is an 
activist group of just interested citizens, and you are here 
representing them.
    Secondly, when the planning team issued its report, its 
findings, 2 years ago, the Friends supported their 
recommendations; correct?
    Mr. Mills. Correct.
    Mr. Wamp. Now, 2 years later, after we have tried to build 
consensus and we have tried to compromise and we have put forth 
what we feel like is the most possible consensus support 
through all the different details of it, the Friends also 
support now H.R. 980 and understand why it was necessary to 
build the consensus; correct?
    Mr. Mills. That is right.
    Mr. Wamp. The point I am making is that the groups that 
really are on the ground locally, working on this, that are 
very diverse in their makeup, have actually reached agreement 
that this is the best way to proceed through some compromise. I 
also want to mention I have actually been playing on this golf 
course before, Mr. Chairman, where a huge buck would come out 
of the Tennessee River, having swum (sic) the entire width, and 
this is a very wide part of the Tennessee River, as it goes 
around Moccasin Bend, swum all the way across the river and run 
right across the golf course in the middle of broad daylight; 
and there are no fences on the bend, and the wildlife is 
incredible.
    Actually, the deer are abundant; and one of the things I 
would hope is that we would not have such finite, fenced-off 
areas that we can allow that to continue, because this actually 
is the home of the deer today.
    Mr. Souder asked questions about the archeological findings 
all down in the heel and the tip of the boot, which is very, 
very important. Mr. Baker, interestingly enough, you focused on 
the Trail of Tears, and that is one of my stated interests in 
this entire process all along, was I feel much like John Adams. 
The Trail of Tears, historically, has been overshadowed by 
other events. The Civil War came 25 years later and certainly 
overshadowed the Trail of Tears. Don't you believe that we need 
to do more to actually give the Trail of Tears a place in 
history so that we can learn what cannot ever happen again and 
how important political decisions can be to people and their 
rights in this country, and don't you think it is time that the 
Trail of Tears has an interpretive center somewhere in our Park 
System in this country?
    Mr. Baker. Yes, I certainly do.
    Mr. Hefley. Well, thank you very much, and thank you, 
witnesses. Let me emphasize what Mr. Souder said, that we wish 
the whole Committee was here to hear what you presented us, 
because it was very excellent, but your statements will be in 
the record for them to read; and it is a pretty good sign, 
probably, as you said, Mr. Souder, that there is not a crowd 
here, because if you actually want to get passed what you are 
proposing, this is a pretty good indication that it is likely 
to happen.
    Thank you very much for being here. The Committee stands 
adjourned.
    [Whereupon, at 12:44 p.m., the Subcommittee was adjourned.]

    [The following additional information was submitted for the 
record:]

    1. Letter dated June 11, 2001 from Kevin Collins, Acting 
Legislative Director, National Parks Conservation Association, 
on H.R. 980;
    2. Letter dated June 8, 2001 from Kevin Collins, Acting 
Legislative Director, National Parks Conservation Association, 
on H.R. 1668;
    3. Statement from Robert M. Davenport, Jr., Chattanooga 
Project Office Director, Trust for Public Land, on H.R. 980;
    4. Letter from Inter-Tribal Council on H.R. 980;
    5. Letter from John Parsons, Chairman, National Capital 
Memorial Commission, National Park Service, on H.R. 1668;
    6. Resolution on H.R. 980 from the Trail of Tears 
Association. <plus-minus>

[GRAPHIC] [TIFF OMITTED] T3044.003

[GRAPHIC] [TIFF OMITTED] T3044.015

[GRAPHIC] [TIFF OMITTED] T3044.004

[GRAPHIC] [TIFF OMITTED] T3044.005

[GRAPHIC] [TIFF OMITTED] T3044.006

[GRAPHIC] [TIFF OMITTED] T3044.009

[GRAPHIC] [TIFF OMITTED] T3044.010

[GRAPHIC] [TIFF OMITTED] T3044.014

[GRAPHIC] [TIFF OMITTED] T3044.011

[GRAPHIC] [TIFF OMITTED] T3044.012

[GRAPHIC] [TIFF OMITTED] T3044.013


</pre></body></html>
